No. 20-261
================================================================================================================

In the

Supreme Court of the United States
---------------------------------♦--------------------------------JEFF SCHULZ, et al.,
Petitioners,

v.

THE PRESBYTERY OF SEATTLE, A WASHINGTON NONPROFIT
CORPORATION; THE FIRST PRESBYTERIAN CHURCH OF
SEATTLE, A WASHINGTON NONPROFIT CORPORATION;
ROBERT WALLACE, PRESIDENT OF THE FIRST PRESBYTERIAN
CHURCH OF SEATTLE; AND WILLIAM LONGBRAKE, ON BEHALF
OF HIMSELF AND SIMILARLY SITUATED MEMBERS OF
THE FIRST PRESBYTERIAN CHURCH OF SEATTLE,
Respondents.
---------------------------------♦--------------------------------ON PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF APPEALS, DIVISION I,
OF THE STATE OF WASHINGTON
---------------------------------♦--------------------------------BRIEF IN OPPOSITION
---------------------------------♦--------------------------------ROBERT B. MITCHELL
Counsel of Record
PETER A. TALEVICH
K&L GATES LLP
925 Fourth Avenue, Suite 2900
Seattle, WA 98104-1158
(206) 623-7580
rob.mitchell@klgates.com
Counsel for Respondents
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED
While under investigation for ecclesial misconduct, petitioners called a congregational meeting to approve seceding from the Presbyterian Church (U.S.A.),
but they failed to give proper notice of the meeting. The
presbytery determined that the congregation was in
schism, ruled that the congregants who opposed petitioners were the true church, and removed petitioners
from the governing board. The courts below ruled that
petitioners had no basis to claim that they still led the
congregation.
The question presented is this:
Does the First Amendment forbid courts to consider a church’s constitution or to defer to the judgment of higher church authorities in resolving
ecclesiastical questions related to governance of a congregation?

ii
CORPORATE DISCLOSURE STATEMENT
The Presbytery of Seattle and The First Presbyterian Church of Seattle, respondents before this Court,
are Washington nonprofit corporations. They do not
issue stock and have no parent corporations.
RELATED PROCEEDINGS
(in addition to those cited in the petition)
King County Superior Court:
Riddell Williams P.C. v. The First Presbyterian
Church of Seattle, No. 16-2-08630-6 SEA (Sept. 8,
2016)
Washington Supreme Court:
The Presbytery of Seattle, et al. v. Jeff Schulz &
Ellen Schulz, et al., No. 93374-0 (Oct. 7, 2016)
The Presbytery of Seattle, et al. v. Jeff Schulz &
Ellen Schulz, et al., No. 94419-9 (consolidated with
No. 94967-1) (May 2, 2018)

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED...................................

i

CORPORATE DISCLOSURE STATEMENT ......

ii

RELATED PROCEEDINGS ................................

ii

TABLE OF CONTENTS ......................................

iii

TABLE OF AUTHORITIES .................................

v

STATEMENT .......................................................

1

A.

The Parties’ Dispute ..................................

1

B.

The Polity of the Church ...........................

6

C.

History of The First Presbyterian Church
of Seattle ......................................................

7

Proceedings in 2017–2020 .........................

9

D.

REASONS WHY CERTIORARI SHOULD BE
DENIED ........................................................... 10
A.

Petitioners fail to raise an issue that merits this Court’s consideration .................... 10
1. Watson and its progeny uphold the
free exercise of religion and avoid any
establishment of religion ..................... 10
2. Presbyterian polity is hierarchical rather than congregational ..................... 17
3. This case turns on questions of religious doctrine and practice ................. 19
4. Petitioners raise no credible challenge
to the polity approach .......................... 21

iv
TABLE OF CONTENTS—Continued
Page
B.

This case is a poor vehicle to examine the
constitutional issues petitioners seek to
raise ........................................................... 26
1. Petitioners’ congregational meeting
was a nullity ........................................ 27
2. The true church is not determined by
a majority vote ..................................... 28
3. Petitioners represent no one but themselves ................................................... 30
4. FPCS has recognized the Church’s interest in FPCS-titled property ............ 31
5. This case is not the right one to tackle
the chaos wrought by “neutral principles” ..................................................... 34

CONCLUSION..................................................... 37
APPENDIX
Supreme Court of Washington, Order, May 5,
2018 .........................................................................1a
Supreme Court of Washington, Ruling Denying
Discretionary Review, October 7, 2016 ...................2a
Report of the Administrative Commission for
First Presbyterian Church of Seattle, February 16, 2016 ...........................................................15a

v
TABLE OF AUTHORITIES
Page
CASES
Bangor Spiritualist Church, Inc. v. Littlefield,
330 A.2d 793 (Me. 1975)..........................................27
Barnett v. Hicks,
792 P.2d 150 (Wash. 1990) ......................................30
Calvary Presbyterian Church v.
Presbytery of Lake Huron,
384 N.W.2d 92 (Mich. App. 1986) ............................. 17
Couie v. Local Union No. 1849 United Brotherhood of Carpenters & Joiners of America,
316 P.2d 473 (Wash. 1957) ......................................12
East Lake Water Ass’n v. Rogers,
761 P.2d 627 (Wash. Ct. App. 1988) ........................27
Gibson v. Armstrong,
1847 WL 1375 (Ky. 1847) ........................................14
Golden Lodge No. 13 v. Grand Lodge of
Independent Order of Odd Fellows of Colo.,
80 P.3d 857 (Colo. App. 2003) ..................................26
Gonzalez v. Roman Catholic Archbishop of
Manila,
280 U.S. 1 (1929) .....................................................13
Grand Aerie, Fraternal Order of Eagles v.
National Bank of Washington, Kent Branch,
124 P.2d 203 (Wash. 1942) ......................................13
Grand Court of Washington, Foresters of
America v. Hodel,
133 P. 438 (Wash. 1913) .................................... 12, 29

vi
TABLE OF AUTHORITIES—Continued
Page
Hartstene Pointe Maintenance Ass’n v. Diehl,
979 P.2d 854 (Wash. Ct. App. 1999) ........................27
Heartland Presbytery v. Gashland
Presbyterian Church,
364 S.W.3d 575 (Mo. Ct. App. 2012) .......... 33, 34, 36
Helm v. Zarecor,
222 U.S. 32 (1911) ...................................................17
Hoffman v. Tieton View Community Methodist
Episcopal Church,
207 P.2d 699 (Wash. 1949) ......................................12
Hope Presbyterian Church of Rogue River v.
Presbyterian Church (U.S.A.),
291 P.3d 711 (Or. 2012) ...........................................32
Hosanna-Tabor Evangelical Lutheran
Church & School v. EEOC,
565 U.S. 171 (2012) .................................................16
Jones v. Wolf,
443 U.S. 595 (1979) ......................................... passim
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in North America,
344 U.S. 94 (1952) ................................. 14, 16, 22, 23
Kreshik v. Saint Nicholas Cathedral,
363 U.S. 190 (1960) .................................................14
Lowe v. First Presbyterian Church of
Forest Park,
308 N.E.2d 801 (Ill. 1974) .......................................18
McGinnis v. Watson,
1862 WL 5032 (Pa. 1862) ........................................13

vii
TABLE OF AUTHORITIES—Continued
Page
Mount Zion Baptist Church v.
Second Baptist Church of Reno,
432 P.2d 328 (Nev. 1967) .........................................27
Musicians’ Protective Union Local No. 274 A.F.
of M. v. American Federation of Musicians of
United States and Canada,
329 F. Supp. 1226 (E.D. Pa. 1971)...........................26
New v. Kroeger,
84 Cal. Rptr. 3d 464 (Cal. Ct. App. 2008) ................21
Our Lady of Guadalupe School v.
Morrissey-Berru,
140 S. Ct. 2049 (2020) ....................................... 16, 20
Peters Creek United Presbyterian Church v.
Washington Presbytery of Pennsylvania,
90 A.3d 95 (Pa. Commw. Ct. 2014) .................... 31, 32
Presbyterian Church v. Mary Elizabeth Blue
Hull Memorial Presbyterian Church,
393 U.S. 440 (1969) .................................................17
Presbytery of Greater Atlanta v.
Timberridge Presbyterian Church,
719 S.E.2d 446 (Ga. 2011) .......................................32
Presbytery of Hudson River of Presbyterian
Church (U.S.A.) v. Trustees of First Presbyterian
Church & Congregation of Ridgeberry,
895 N.Y.S.2d 417 (N.Y. App. Div. 2010) ...................32
Presbytery of Seattle v. Rohrbaugh,
485 P.2d 615 (Wash. 1971) .................... 12, 20, 29, 34

viii
TABLE OF AUTHORITIES—Continued
Page
Rentz v. Werner,
232 P.3d 1169 (Wash. Ct. App. 2010) ......................24
Serbian Eastern Orthodox Diocese for the
United States of America and Canada v.
Milivojevich,
426 U.S. 696 (1976) ......................................... passim
Sharpe v. Bonham,
224 U.S. 241 (1912) .................................................17
Shepard v. Barkley,
247 U.S. 1 (1918) .....................................................17
State Bank of Wilbur v. Wilbur Mission Church,
265 P.2d 821 (Wash. 1954) ................................ 27, 30
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1871) ............................ passim
Winebrenner v. Colder,
1862 WL 5153 (Pa. 1862) .......................................... 14
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. I ................................. 21, 22, 23, 29
OTHER AUTHORITIES
Clifford M. Drury, George Frederick Whitworth,
Father of Presbyterianism in Washington, 26
J. PRESBYTERIAN HIST. SOC’Y (1943–1961) 1
(1948), www.jstor.org/stable/23324338 (accessed
Sept. 24, 2020) .........................................................24

ix
TABLE OF AUTHORITIES—Continued
Page
Frank S. Ravitch, A Funny Thing Happened on
the Way to Neutrality: Broad Principles, Formalism, and the Establishment Clause, 38 GA.
L. REV. 489 (2004) ...................................................34
John H. Garvey, Churches and the Free Exercise
of Religion, 4 NOTRE DAME J.L. ETHICS & PUB.
POL’Y 567 (1990) ......................................................24
Louis J. Sirico, Jr., Church Property Disputes:
Churches as Secular and Alien Institutions, 55
FORDHAM L. REV. 335 (1986) ..................................25

1
STATEMENT
A. The Parties’ Dispute
In 2012, Seattle Presbytery and the session (governing board) of The First Presbyterian Church of
Seattle (“FPCS”) began working to redevelop the real
property in downtown Seattle on which First Presbyterian Church now sits. CP 593. Seattle Presbytery
was involved because, as then co-pastor Jeff Schulz
wrote, FPCS “owns its property in trust of the Presbytery, which must approve a purchase/sale agreement.”
CP 616.
In April 2014, as work on a purchase and sale
agreement neared completion, petitioners secretly
hired an out-of-state lawyer who advises congregations
trying to leave their denominations with the real property they occupy. CP 436, 442–44, 415, 1306–08. When
Seattle Presbytery learned of this and asked for an explanation, Jeff Schulz said that the lawyer had been
hired to update FPCS’s corporate documents. CP 415,
421. In reality, he was hired “to represent and advise
[on] church property matters.” CP 436, 442. Within a
week of Jeff Schulz’s false assurance, the lawyer sent
petitioners draft severance agreements that would become operative once FPCS seceded from the Presbyterian Church (U.S.A.) (the “Church”). CP 415, 423–30.
In July 2015, Seattle Presbytery began formally
investigating petitioners. BIO 19a. On October 27,
2015, as this investigation was intensifying, petitioners voted to make themselves a board of trustees for

2
the church corporation,1 to transfer $420,000 in church
funds to their law firm, to approve the Schulz severance agreements, and to call a meeting of the congregation and corporation on November 15, 2015, to vote
on resolutions to “disaffiliate” from the Church.2 See
BIO 21a, CP 196, 200. Two elders resigned from the
session rather than support these actions. BIO 40a–
41a; see CP 2357–61, 2389–95.
On November 2, 2015, the Council of Seattle Presbytery called a special meeting of the presbytery to
consider appointment of an administrative commission to act on the presbytery’s behalf with respect to
FPCS. CP 2307. On November 5, petitioners mailed
voting materials to the congregation. CP 132–33; see
CP 141–71. They urged congregants to vote for “disaffiliation” in light of fundamental differences on “Biblical and theological foundations, government, and
property.” CP 149. They described the Church’s system
of government as a “hierarchical structure” that frustrated FPCS’s entrepreneurial efforts. Id. Telling
The bylaws of FPCS, adopted at a congregational meeting
on May 8, 2005, eliminated the board of trustees. CP 549, 553; see
CP 554–58. The bylaws could be amended only by a 2/3 vote of the
members of the congregation present for the vote and then only
in conformance with the Articles of Incorporation and the Church
constitution. CP 558. The Articles required that trustees be “chosen by the members of the church and of the congregation at an
annual meeting called for that purpose. . . .” CP 723.
2
“Disaffiliation” implies that congregations are independent
and choose the denominations with which they affiliate. Presbyterian congregations, however, belong to a unitary Church and
may be dismissed only by presbytery action. CP 631–33, 650, 686,
696.
1

3
congregants that the Church “claims a trust interest in
all church property,” petitioners said they were looking
for “a denomination that has no trust interest in
church property.” CP 150, 144.3
The FPCS bylaws require that public notice of congregational meetings “be given in printed and verbal
form on at least two successive Sundays prior to the
meeting.” CP 555. The bylaws also require that a
printed notice of any meeting of the corporation “be included in the church bulletin, signed by the Clerk of
the Session,” specifying the time, place, and purpose of
the meeting, “which notice shall be audibly read at
public worship to the assembled congregation on at
least two successive Sundays prior to the date of such
meeting.” Id. But the bulletin for the November 8 service contained no notice of the meetings called for November 15, and no announcement was made to the
assembled congregation. See CP 622, 625–26.
On November 10, 2015, the Schulzes signed their
severance agreements. CP 201–06. On November 15,
petitioners convened meetings of the congregation and
the corporation and requested approval of their proposed resolutions. CP 549, 635. Petitioners solicited
and counted proxy votes, even though both the FPCS
bylaws and the Church constitution forbid proxy

No other denomination, however, proved willing to accept
petitioners. See BIO 33a–34a.
3

4
voting. CP 549, 635.4 A majority of the 54 persons present plus those represented by proxy voted in favor. CP
609.
Two days later, Seattle Presbytery formed the
Administrative Commission for First Presbyterian
Church of Seattle (the “AC”). BIO 22a. Respondents
Robert Wallace and William Longbrake (a longtime
member and ruling elder of FPCS) are members of the
AC. BIO 25a. Seattle Presbytery instructed the AC to
conduct a thorough investigation of petitioners and to
take corrective action. BIO 22a–24a.
On February 16, 2016, the AC issued its report.
The AC found that co-pastors Jeff and Ellen Schulz
had engaged in serious misconduct; it found substantial evidence of financial irregularities and altered records;5 and it found that petitioners had violated their
ordination vows.6 BIO 33a–50a. The AC determined
that there was a schism in FPCS and that FPCS
Both the record and the trial court’s finding that voting “occurred in person and by proxy” (Pet. at 45a) belie petitioners’ assertion to the contrary (Pet. at 11 n.3).
5
After reviewing church records, a forensic accountant determined that the Schulzes were paid “under the table”—i.e., outside the church payroll system—in order to qualify their collegeage son for financial aid. The Schulzes thereby violated the Internal Revenue Code. CP 207–301, 450–56.
6
Among other things, petitioners conspired “to isolate [elder
and corporate officer Neal Lampi] from the early decision-making
process and from [their] intentions.” CP 2355–56. Petitioners also
did not tell the congregation about the Schulz severance agreements, CP 103, and refused to include an elder’s resignation letter
in the session minutes. BIO 40a.
4

5
members who opposed petitioners’ actions were the
true church. BIO 50a. The AC also determined that the
session was not capable of exercising authority. As the
Church constitution provides in such circumstances,
the AC assumed original jurisdiction and displaced the
session as the governing board of FPCS. BIO 51a. The
AC appointed a temporary pastor for the congregation.
BIO 52a.
Petitioners did not appeal the AC’s decision to a
higher church council, as was their right. They simply
refused to recognize the AC’s actions or comply with its
directions. CP 628. Civil litigation followed. On May
27, 2016, the trial court entered a declaratory judgment upholding the decisions of the AC. Pet. at 27a–
35a. The court also denied petitioners’ motion for a
preliminary injunction, entering detailed findings of
fact. Pet. at 36a–50a.
Petitioners sought interlocutory review of the trial
court’s orders. In her ruling denying review, Washington Supreme Court Commissioner Narda Pierce noted
that, because the trial court had concluded petitioners
would also lose under neutral principles, a reviewing
court might not need to choose among methods for resolving church property disputes. BIO 11a. After the
Court denied their motion for an emergency stay, petitioners relinquished FPCS’s premises to the true
church. See CP 72, 106. Petitioners have had no involvement with FPCS for more than four years. The
Schulzes now live in Texas. See Decl. of H. Armstrong,
Case No. 78399-8-I at 4 (Wash. Ct. App. Nov. 30, 2018).

6
B. The Polity of the Church
The Church is a historic Protestant denomination.
CP 630–31. A foundational principle is that all Church
congregations, “wherever they are . . . constitute one
church.” CP 631, 650. Congregations are governed by a
hierarchy of councils: in ascending order, the session
(pastors and elders of the local congregation), the presbytery (all pastors and at least one elder from each congregation in a district), the synod (representative
pastors and elders from the presbyteries in a region),
and the general assembly (delegations of pastors and
elders from the presbyteries). CP 631, 2404–05.
The Church, its congregations, and its councils are
governed by the Church constitution, Part II of which
is called the Book of Order. CP 630; see CP 640–705.
The Book of Order has detailed provisions that describe the councils and relationships among them, the
responsibilities of elders and deacons, Church property
interests, and resolution of Church disputes. CP 630–
33, 1168–75, 2402–07. Under the Book of Order, the relationship between a congregation and the Church
cannot be severed by the congregation, CP 632, but
“only by constitutional action on the part of the presbytery.” CP 633, 696. If there is a split or schism within
a congregation, the presbytery is empowered to determine which faction is the true church and therefore entitled to congregational property. CP 696–97. “This
determination does not depend upon which faction received the majority vote within the congregation at the
time of the schism.” CP 697.

7
The Book of Order requires each council of the
Church to form and maintain a nonprofit corporation
where permitted by civil law. CP 1168–69, 2404. Such
corporations have the power to receive, hold, encumber,
manage, and transfer property for and at the direction
of the council. CP 1169; see CP 695. At the congregational level, corporations must act “for the congregation.” CP 695. Their actions are “all subject to the
authority of the session and under the provisions of the
Constitution of the [Church]. The powers and duties of
the trustees shall not infringe upon the powers and duties of the session or the board of deacons.” Id.
C. History of The First Presbyterian Church of
Seattle
FPCS was organized on December 12, 1869, at the
home of Rev. George Whitworth. CP 1039. The governing presbytery at that time was the Presbytery of Oregon. Id. The first elders of FPCS were elected and
ordained in 1873, CP 1040, and in 1874 articles of incorporation were filed with the territorial government,
CP 720. The articles stated that the purpose of FPCS
was “to promote the worship of Almighty God and the
belief in and extension of the Christian Religion, under
the form of government and discipline of the ‘Presbyterian Church in the United States of America.’ ” CP
634, 717.
As the oldest congregation in the Presbytery of Seattle, FPCS has a distinguished history of ministry in
downtown Seattle. CP 633. FPCS’s historic records

8
reflect faithful adherence to Presbyterian principles
and the church’s bylaws. See CP 2533–35.
In 1981, after this Court’s decision in Jones v. Wolf,
443 U.S. 595 (1979), the United Presbyterian Church
in the United States of America adopted an express
trust provision as part of the Book of Order. See CP
1171–73, 1178–84. That provision carried over when,
in 1984, the United Presbyterian Church in the United
States of America joined with the Presbyterian Church
in the United States (the southern branch) to form the
Presbyterian Church (U.S.A.). CP 632, 1173.
Despite having voiced opposition to the express
trust provision when it was first proposed, FPCS restated its articles of incorporation in 1985 to provide
that the “objects and purposes” of FPCS are “to promote the worship of Almighty God and the belief in the
extension of the Christian religion under the Form of
Government and discipline of ‘The Presbyterian
Church (U.S.A.).’ ” CP 634, 723–24. FPCS’s audited financial statements thereafter noted:
By Constitution, all church land and buildings
are owned by or held in trust for the Presbyterian Church USA. Since [FPCS] retains
stewardship responsibility, it has recorded
such assets in its financial statements. The
property is not subject to mortgage except by
consent of the Presbytery of Seattle, a jurisdiction of the Presbyterian Church USA.
CP 2612–13, 2618–51.

9
D. Proceedings in 2017–2020
After learning that the Schulzes intended to invoke their purported severance agreements, CP 72–73,
173, the AC issued a supplemental report. See CP 196–
206. The AC found that the severance agreements
would alter the terms of call for the Schulzes and that,
under Church law, such a change was not valid unless
both the congregation and the presbytery approve.
Neither approval was obtained. CP 196–97; see CP
103–04, 111–21, 133, 432–33. The AC also found that
the agreements do not apply if the Schulzes decide “to
end the pastoral relationship” and that, under Church
law, the Schulzes ended their pastoral relationships
when they “renounced [Church] jurisdiction” in December 2015. CP 197–98; see CP 104, 125, 433–34.
Respondents sued the Schulzes seeking declaratory relief with respect to the severance agreements.
In March 2017, the trial court upheld the AC’s determinations and dismissed the Schulzes’ counterclaims.
CP 457–62, 475. The Schulzes promptly filed a notice
of appeal to the Washington Supreme Court. CP 463–
64. In August 2017, petitioners and respondents resolved all remaining trial court claims. After entry of
final judgment, CP 3392–98, petitioners filed a notice
of appeal to the Washington Supreme Court, CP 3399–
401. That court consolidated petitioners’ appeal with
the Schulzes’ already-pending appeal.
In May 2018, after briefing was completed, the
Washington Supreme Court denied direct review and
transferred the cases to the Court of Appeals. BIO 1a.

10
The Court of Appeals affirmed the trial court on both
governance and severance. Pet. at 1a–26a. The Washington Supreme Court again denied review. Pet. at
53a–54a.
---------------------------------♦---------------------------------

REASONS WHY CERTIORARI
SHOULD BE DENIED
A. Petitioners fail to raise an issue that merits
this Court’s consideration.
The decision of the Washington Court of Appeals
rejecting petitioners’ claims is fully consistent with—
indeed, compelled by—governing state law. Petitioners
contend that the law of Washington and at least 13
other states is unconstitutional and that 150 years of
this Court’s precedents should be overturned. Petitioners focus their attack on Watson v. Jones, 80 U.S. (13
Wall.) 679 (1871), which they claim reflects “not only
bad theology, but also bad constitutional law.” Pet. at 2.
They are wrong on both counts.
1. Watson and its progeny uphold the free
exercise of religion and avoid any establishment of religion.
Watson v. Jones involved competing claims by
pro-slavery and anti-slavery factions to the Third or
Walnut Street Presbyterian Church of Louisville,
Kentucky. To resolve this dispute, the Court eschewed
the approach taken by English judges, who seek to
determine “the true standard of faith in the church

11
organization, and which of the contending parties before the court holds to this standard.” 80 U.S. at 727.
As this Court explained, American courts must avoid
such inquiries:
In this country the full and free right to entertain any religious belief, to practice any religious principle, and to teach any religious
doctrine which does not violate the laws of
morality and property, and which does not infringe personal rights, is conceded to all. The
law knows no heresy, and is committed to the
support of no dogma, the establishment of no
sect.
Id. at 728.
If civil courts may not resolve issues of religious
faith and doctrine, they must defer to someone else’s
resolution of those issues. Watson v. Jones sets forth
three rules for deference. First, if property is subject to
an express trust in which the settlor specifies doctrinal
requirements, courts have the duty “to see that the
property so dedicated is not diverted from the trust
which is thus attached to its use.” Id. at 723. Second, if
property is held by a religious congregation that “is
strictly independent of other ecclesiastical associations, and so far as church government is concerned,
owes no fealty or obligation to any higher authority,”
id. at 722, courts should apply the ordinary principles
that govern unaffiliated voluntary associations, such
as majority rule, id. at 725. And third, if “the religious
congregation or ecclesiastical body holding the property is but a subordinate member of some general

12
church organization in which there are superior ecclesiastical tribunals with a general and ultimate power
of control,” id. at 722, courts should follow this rule:
[W]henever the questions of discipline, or of
faith, or ecclesiastical rule, custom, or law
have been decided by the highest of these
church judicatories to which the matter has
been carried, the legal tribunals must accept
such decisions as final, and as binding on
them, in their application to the case before
them.
Id. at 727.
Washington courts have long followed Watson v.
Jones to resolve disputes arising within churches of
hierarchical polity. See, e.g., Presbytery of Seattle v.
Rohrbaugh, 485 P.2d 615, 619 (Wash. 1971); Hoffman
v. Tieton View Cmty. Methodist Episcopal Church, 207
P.2d 699, 706 (Wash. 1949). Washington courts have
applied the same rule to resolve disputes arising
within non-religious voluntary organizations. For example, in Grand Court of Washington, Foresters of
America v. Hodel, 133 P. 438, 439 (Wash. 1913), the appellants argued that a subordinate lodge within a fraternal organization “may secede from the parent
organization, if the majority of such lodge will it, and
may take with them the money and property of the
subordinate lodge.” The court rejected that contention,
holding that “the majority cannot, against the will of
the minority, lawfully divert such funds for uses other
than those permitted by the constitution and laws of
the order.” Id.; accord Couie v. Local Union No. 1849

13
United Bhd. of Carpenters & Joiners of Am., 316 P.2d
473, 478 (Wash. 1957); Grand Aerie, Fraternal Order of
Eagles v. Nat’l Bank of Wash., Kent Branch, 124 P.2d
203, 206 (Wash. 1942).
Washington law embodies Watson’s premise:
churches come before the courts “in the same attitude
as other voluntary associations for benevolent or charitable purposes, and their rights of property, or of contract, are equally under the protection of the law, and
the actions of their members subject to its restraints.”
80 U.S. at 714.7 Petitioners, however, seek to disqualify
churches from the protections, and free themselves
from the restraints, that apply to other voluntary organizations in Washington.
This Court applied common-law rules when it decided Watson v. Jones,8 but those rules enshrine First
As Justice Brandeis observed in Gonzalez v. Roman Catholic Archbishop of Manila, 280 U.S. 1, 16–17 (1929), “the decisions
of the proper church tribunals on matters purely ecclesiastical,
although affecting civil rights, are accepted in litigation before the
secular courts as conclusive, because the parties in interest made
them so by contract or otherwise. Under like circumstances, effect
is given in the courts to the determinations of the judicatory bodies established by clubs and civil associations.” (footnotes omitted).
8
Amicus ACNA claims (at 8) that Watson “jettisoned” common law. To the contrary, earlier cases recognized the polity of
religious bodies as a key issue in resolving intra-church disputes.
See, e.g., McGinnis v. Watson, 1862 WL 5032 (Pa. 1862) (religious
societies “may organize as independent churches, and then their
law is found in their own separate institutions . . . . Or they may
organize as associated churches . . . . When persons join a church
belonging to such a general organism, they assent to its laws, and
7

14
Amendment principles. “The [Watson] opinion radiates
. . . a spirit of freedom for religious organizations, an
independence from secular control or manipulation, in
short, power to decide for themselves, free from state
interference, matters of church government as well as
those of faith and doctrine.” Kedroff v. St. Nicholas Cathedral of Russian Orthodox Church in N. Am., 344
U.S. 94, 116 (1952). A church’s power to decide deserves
no less respect where its decision affects who can claim
rights in property:
Even in those cases when the property right
follows as an incident from decisions of the
church custom or law on ecclesiastical issues,
the church rule controls. This under our Constitution necessarily follows in order that
there may be free exercise of religion.
Id. at 120–21 (footnote omitted); accord Kreshik v.
Saint Nicholas Cathedral, 363 U.S. 190 (1960) (per curiam).
Reinforcing constitutional support for the rules in
Watson, this Court held in Serbian Eastern Orthodox
Diocese for the United States of America and Canada v.
are entitled to the implication that the affairs of the church are to
be managed according to them.”); Winebrenner v. Colder, 1862
WL 5153 (Pa. 1862) (congregational majority may not claim independence from denomination; “it is those who adhere or submit to
the regular order of the church, local and general (even though
they be a minority), that constitute the true congregation, and
also the true corporation if it be incorporated.”); Gibson v. Armstrong, 1847 WL 1375 (Ky. 1847) (in the case of schism, members’
rights to use property “must be decided by rules of the Church”;
faction may not defy the Church’s highest tribunals).

15
Milivojevich, 426 U.S. 696, 709 (1976), that where resolution of a dispute
cannot be made without extensive inquiry by
civil courts into religious law and polity, the
First and Fourteenth Amendments mandate
that civil courts shall not disturb the decisions
of the highest ecclesiastical tribunal within a
church of hierarchical polity, but must accept
such decisions as binding on them, in their application to the religious issues of doctrine or
polity before them.
This is true regardless of whether deference
affects the control of church property. See id.9 The holding in Milivojevich reiterates the governing constitutional principle:
[T]he First and Fourteenth Amendments permit hierarchical religious organizations to establish their own rules and regulations for
internal discipline and government. . . . When
. . . ecclesiastical tribunals are created to decide disputes over the government and direction of subordinate bodies, the Constitution
requires that civil courts accept their decisions as binding upon them.

Petitioners and amici treat church property disputes as
wholly distinct from disputes over church governance. That is a
false dichotomy. The persons who are the proper governors of a
congregation have authority to control its property; those who are
not, do not.
9

16
Id. at 724–25; accord Hosanna-Tabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S. 171, 185–87
(2012); see also id. at 201 (Alito, J., concurring).10
Just last term, this Court cited Watson, Kedroff
and Milivojevich as having established the “constitutional foundation” for the ministerial exception. Our
Lady of Guadalupe School v. Morrissey-Berru, 140
S. Ct. 2049, 2061 (2020); see also id. at 2063 n.10. In
words that could have been written for this case, the
Court stated:
[T]he Religion Clauses protect the right of
churches . . . to decide matters of faith and
doctrine without government intrusion. State
interference in that sphere would obviously
violate the free exercise of religion, and any
attempt by government to dictate or even to
influence such matters would constitute one
of the central attributes of an establishment
of religion. The First Amendment outlaws
such intrusion.
Id. at 2060 (internal citations and quotations omitted).
Independence in matters of faith and doctrine requires
independence in matters of church government, and
this protects church autonomy “with respect to internal management decisions that are essential to the institution’s central mission.” Id.

Academic amici claim (at 4) that “courts are neither empowered nor qualified” to determine whether a religious organization has a hierarchical polity and may not even seek to do so.
This Court’s decisions are directly to the contrary.
10

17
Far from being a wrongheaded relic of Reconstruction, Watson v. Jones is a pillar of contemporary First
Amendment jurisprudence.
2. Presbyterian polity is hierarchical rather than congregational.
Petitioners’ charge of “bad theology” rests on their
claim that the Presbyterian form of government is nonhierarchical. Without admitting it, petitioners attack
the holdings in six decisions of this Court11 as well as
a host of state court decisions,12 all of which state or
See Jones v. Wolf, 443 U.S. 595, 597–98 (1979) (“The [Presbyterian Church] has a generally hierarchical or connectional
form of government, as contrasted with a congregational form.”);
Presbyterian Church v. Mary Elizabeth Blue Hull Mem’l Presbyterian Church, 393 U.S. 440, 441–42 (1969) (“Petitioner . . . is an
association of local Presbyterian churches governed by a hierarchical structure of tribunals which consists of, in ascending order,
(1) the Church Session, composed of the elders of the local church;
(2) the Presbytery, composed of several churches in a geographical area; (3) the Synod, generally composed of all Presbyteries
within a State; and (4) the General Assembly, the highest governing body.”); Shepard v. Barkley, 247 U.S. 1 (1918); Sharpe v. Bonham, 224 U.S. 241 (1912); Helm v. Zarecor, 222 U.S. 32 (1911);
Watson v. Jones, 80 U.S. at 727 (“There are in the Presbyterian
system of ecclesiastical government, in regular succession, the
presbytery over the session or local church, the synod over the
presbytery, and the General Assembly over all.”).
12
See, e.g., Calvary Presbyterian Church v. Presbytery of
Lake Huron, 384 N.W.2d 92, 95 (Mich. App. 1986) (“Despite the
Church’s arguments to the contrary, it is clear that this Presbyterian Denomination is hierarchical and that the church government had the agreed and declared power to act as it did in
replacing the Session with the Administrative Commission and
11

18
presume that the Church features hierarchical governance.
In attacking the foundation for every published
court decision in this country involving a Presbyterian
church, petitioners cite to the declaration of their purported expert witness, Parker Williamson. E.g., Pet. at
7, 8, 9. But Williamson “is wrong,” CP 2405, according
to a declaration setting forth the Church’s authoritative assessment of its own polity. See CP 2402–26. “The
congregations within the Church are governed by a
hierarchy of councils,” CP 2404, and “presbyteries are
required to protect the beneficial interests of the
Church [in congregational property],” CP 2407.
The First and Fourteenth Amendments forbid
courts from substituting their interpretation of church
constitutions “for that of the highest ecclesiastical tribunals in which church law vests authority to make
that interpretation.” Milivojevich, 426 U.S. at 721.
Therefore, no court may credit petitioners’ assertions
about Presbyterian polity. Moreover, even if there were
a judicially cognizable dispute over the extent to which
the Church should be seen as hierarchical as an abstract matter, the only issue here is whether the
Church constitution empowers a council above the congregational level to speak to issues of church governance and property. It plainly does. Under Presbyterian
in determining that the seceding Church could not take the real
estate with it.”); Lowe v. First Presbyterian Church of Forest Park,
308 N.E.2d 801, 805 (Ill. 1974) (“It is clear that the United Presbyterian Church is hierarchical in governmental form in that
each judicatory has control of those below it.”).

19
polity, the AC’s judgments are binding absent an appeal to a yet higher Church council, see CP 2406, and
petitioners did not appeal them.
3. This case turns on questions of religious
doctrine and practice.
Although petitioners claim that this case raises
but one issue—namely, ownership of the property titled in FPCS’s name—they are wrong. Consider their
assertion that a Presbyterian congregation may “disaffiliate” from the Church simply by taking a vote at a
congregational meeting. The Church constitution specifically provides otherwise, based on a fundamental
theological principle: the Church is unitary. CP 631,
650.
The Church constitution also provides that, if
there is a schism in a congregation, the presbytery determines who is the true church and therefore entitled
to carry on the congregation’s ministry.13 The issue of
who is the “true church” within a hierarchical denomination is, by definition, one of hierarchical polity. Were
the rule otherwise, a rogue pastor could respond to an
investigation by rallying allies and pulling the congregation out of the denomination—while still claiming to
“If there is a schism within the membership of a congregation and the presbytery is unable to effect a reconciliation . . . ,
the presbytery shall determine if one of the factions is entitled to
the property because it is identified by the presbytery as the true
church within the [Church]. This determination does not depend
upon which faction received the majority vote within the congregation at the time of the schism.” CP 696–97 (G-4.0207).
13

20
lead “First Presbyterian Church of Seattle.” That is exactly what the Schulzes tried to do here. Cf. Our Lady
of Guadalupe, 140 S. Ct. at 2060 (without the power of
removal, “a wayward minister’s preaching, teaching,
and counseling could contradict the church’s tenets
and lead the congregation away from the faith.”).
When the lay petitioners were ordained as ruling
elders, they vowed that they would be governed by the
Church’s polity and abide by its discipline. BIO 49a.
The AC removed them as ruling elders and leaders of
the congregation after they violated that oath and refused to cooperate with the Church’s investigation.14
Petitioners also claim to be trustees (even though the
congregation never elected them as such), but the
Church constitution makes clear that trustees act at
the direction of the session. “[U]nder the church constitution, the right to control the use of the property is
vested not in the trustees but in the Session, the Session in turn being subject to control by the Presbytery. . . .” Rohrbaugh, 485 P.2d at 618.
Fundamental issues of church government are inherently religious: “questions of church discipline and
the composition of the church hierarchy are at the core
of ecclesiastical concern[.]” Milivojevich, 426 U.S. at
The Book of Order provides: “After a thorough investigation, and after full opportunity to be heard has been accorded . . . ,
the presbytery may conclude that the session of a congregation is
unable or unwilling to manage wisely its affairs. . . . [The administrative] commission shall assume original jurisdiction of the existing session, if any, which shall cease to act until such time as
the presbytery shall otherwise direct.” CP 687 (G-3.0303.e).
14

21
717; cf. New v. Kroeger, 84 Cal. Rptr. 3d 464, 474–79
(Cal. Ct. App. 2008) (even under “neutral principles,”
courts must defer to church’s ecclesiastical determination of who were the true members of the parish and
the bishop’s replacement of former vestry). Applying
the polity approach to such issues is not just permissible; it is mandatory.
Ecclesiastical questions are equally fundamental
to the Schulzes’ severance claim. Church doctrine
holds that a severance agreement changes a pastor’s
terms of call and therefore requires congregational and
presbytery approval. Absent such approval, a severance agreement with a Presbyterian pastor is invalid.
CP 23, 671 (G-2.0804), 664 (G-2.0502). Church doctrine
also states that a pastor’s renunciation of Church jurisdiction terminates that person’s ministry. See CP
23–24, 667–68 (G-2.0509). These doctrinal principles
require rejection of the Schulzes’ severance claim. Petitioners have abandoned any argument to the contrary.
4. Petitioners raise no credible challenge
to the polity approach.
To overturn a cornerstone of First Amendment
doctrine, petitioners would need an extraordinarily
compelling argument. They do not have one.15
Petitioners simultaneously seek to rely on this Court’s
decision in Jones v. Wolf, 443 U.S. 595, and to reject virtually
everything that decision says—including that states may
15

22
First, petitioners posit that “church property
cases” have nothing to do with church doctrine. Pet. at
13. But Kedroff and Milivojevich stand for the opposite
proposition.16 As in those cases, the question of who
controls FPCS property is inextricably linked to issues
of church governance and mission. And as this Court
held in those cases, the First Amendment requires
courts to defer to the Church’s ecclesiastical decisions
regarding governance.
The Schulzes removed themselves from any role in
leading FPCS when they renounced the jurisdiction of
the Church. The other petitioners effectively renounced the jurisdiction of the Church when they followed the Schulzes’ lead, disrupting the peace and
unity of the Church, and when they refused to engage
with an investigation conducted under the Church’s
discipline. This misconduct resulted in their removal
by the AC. Petitioners have no standing to assert any
position on behalf of FPCS, and no court may, consistent with the Free Exercise Clause, credit their
claim that they still lead FPCS.

continue to apply the polity approach to resolve church property
disputes and must do so if the dispute turns on a question of doctrine. See id. at 602, 604. Academic amici try to argue that no one
could reasonably rely on what this Court said in Milivojevich and
Jones v. Wolf.
16
Amicus Becket acknowledges (at 17 n.10) that the resolution of a church property dispute may turn on resolution of an
ecclesiastical question such as who runs “the church itself,” in
which case civil courts must defer to the ecclesiastical authorities.
This is just such a case.

23
Petitioners assert that the Court of Appeals violated the Establishment Clause by deferring to the
AC’s determinations, but that assertion also does not
withstand scrutiny. The First Amendment requires
courts to defer to some person or entity in any matter
involving religious doctrine and church governance, as
Watson, Kedroff, and Milivojevich make clear. Petitioners apparently have no problem with judicial deference
to a congregational majority. They do not explain why
it is permissible for a court to defer to them but not to
respondents. After all, respondents’ position is supported by the constitution of the Church, whereas petitioners’ ecclesiastical authority has been revoked.
Petitioners assert that by “establishing a top-down
hierarchical governance structure for any and all faith
groups that are not wholly ‘independent,’ ” Watson
“denies religious groups their constitutional freedom
to determine their own form of governance.” Pet. at
14.17 Watson does no such thing. Rather, the polity approach accommodates whatever polity a religious
Amicus Becket (at 3) adds that the polity approach pushes
religious organizations “toward a more rigidly hierarchical structure,” but they cite no evidence for this assertion and their example of the Presbyterian Church in America (organized in 1973)
belies it. Academic amici (at 13) claim without support that deference pressures “congregational denominations” and “operates
as a one-way ratchet toward ever more hierarchical forms of religious government.” Like petitioners, and contrary to Milivojevich,
amici seek to dispute the Church’s theological self-understanding. Amici would forbid courts to consider any church constitution, including the ones they cite, whereas the polity approach
accords equal respect to the constitution of every religious organization.
17

24
organization may choose. See, e.g., Rentz v. Werner, 232
P.3d 1169, 1176 (Wash. Ct. App. 2010) (resolving ecclesiastical dispute within spiritualist church by determining the person to whom organizational documents
gave ecclesiastical authority and deferring to her decision).18
It is petitioners who seek to replace the wide variety of church organizational forms with a single model.
According to petitioners, every Protestant church—regardless of what its doctrine teaches—is a collection of
autonomous congregations that are free to “affiliate” or
“disaffiliate” as they see fit (or, more accurately, as a
majority of the then-congregants might decide). Such
congregations are assumed to spring up on their own
rather than being the product of denominational
church-planting activity,19 to draw members and financial support for reasons that have nothing to do with
doctrine or governance, and to regard property as a
personal possession rather than as a means to pursue

“The rule of deference does not prefer certain groups because their status makes them more worthy. . . . The general
church prevails because that is the choice the formerly united
group made, ex ante, for its own self-government. And the free
exercise of religion protects the right to make and carry out
choices about ecclesiastical governance.” John H. Garvey,
Churches and the Free Exercise of Religion, 4 NOTRE DAME J.L.
ETHICS & PUB. POL’Y 567, 586–87 (1990).
19
FPCS was organized in 1869 by a prominent Church missionary. See Clifford M. Drury, George Frederick Whitworth, Father of Presbyterianism in Washington, 26 J. PRESBYTERIAN HIST.
SOC’Y (1943–1961) 1, 1–10 (1948), www.jstor.org/stable/23324338
(accessed Sept. 24, 2020); CP 1039.
18

25
church-wide ministry.20 The only evidence that a court
may consider to suggest otherwise is how the congregation’s property happens to be titled.21 Petitioners’ assumptions are not just wrong; they also may not be
indulged without establishing a special form of congregational religion.22
Petitioners’ real beef is less with the polity approach than with any form of “neutral principles”
that looks at organizational documents. Petitioners
and amici have convinced themselves that the quality
of judicial decision-making would improve if only
courts were forbidden to examine or credit the constitutions under which churches govern themselves. This
is counterintuitive, to say the least. Petitioners’ position also reflects a peculiar notion of “neutrality,” as it
would deny the Presbyterian Church the respect that
Petitioners, who served as fiduciaries, have no personal
ownership claim to FPCS’s property. Hence, amicus ACNA’s discussion (at 1) of individual property rights has no bearing on this
case.
21
See Louis J. Sirico, Jr., Church Property Disputes:
Churches as Secular and Alien Institutions, 55 FORDHAM L. REV.
335, 356–57 (1986) (listing additional assumptions that underlie
the “neutral principles” test and concluding that it “fails to comport with reality . . . because it assumes that selectively culled
provisions accurately reflect the expectations of the parties. It
thus permits dispute resolution only by positing an artificial formalism on the church’s part.”).
22
Contrary to amici’s claim that their preferred approach
avoids pressuring churches to structure their internal affairs in
any particular way (Becket Br. at 19), amici’s approach would require churches to retitle tens of thousands of parcels of real property before courts would recognize that the church’s polity is not
congregational.
20

26
courts give to secular organizations ranging from musicians’ unions to the Independent Order of Odd Fellows.23 This Court has never endorsed such willful
blindness or countenanced such hostility to churches
with non-congregational polities, and it should not
start now.
B. This case is a poor vehicle to examine the constitutional issues petitioners seek to raise.
Even if petitioners could establish a theoretical issue meriting Supreme Court review, this case would
not be a good one to consider it. Petitioners ask this
Court to defer to the majority vote taken at a congregational meeting, but the absence of proper notice
means that no business could validly be conducted at
that meeting. A majority vote, moreover, cannot determine the identity of the “true church” under Washington law, and petitioners are not part of the true church.
Further, petitioners’ self-election did not make them
trustees or give them standing to assert claims on behalf of the FPCS congregation. Finally, FPCS has long
recognized the Church’s interest in the property that
petitioners claim for themselves. For all these reasons,
23

See Musicians’ Protective Union Local No. 274 A.F. of M.
v. Am. Fed’n of Musicians of the U.S. and Can., 329 F. Supp. 1226,
1236 (E.D. Pa. 1971) (a governing board’s construction of constitution and bylaws “is binding on the membership and will be recognized by the courts”; revocation of local charter upheld); Golden
Lodge No. 13 v. Grand Lodge of Indep. Order of Odd Fellows of
Colo., 80 P.3d 857, 859 (Colo. App. 2003) (affirming decision by
governing body of fraternal organization to revoke local chapter’s
charter and seize its assets).

27
petitioners cannot prevail under any version of “neutral principles.”
1. Petitioners’ congregational meeting was
a nullity.
As the trial court found (Pet. at 45a), petitioners
failed to provide notice of their purported congregational and corporation meeting as the bylaws required.
In addition to the lack of notice at the church service
on November 1, no notice was read at the service on
November 8, 2015, and no notice was printed in the
church bulletin. See CP 555, 622, 625–26. Therefore, no
business could be validly conducted at the meeting
that petitioners called for November 15, 2015. E. Lake
Water Ass’n v. Rogers, 761 P.2d 627, 628 (Wash. Ct. App.
1988) (“Where a meeting of a nonprofit corporation is
not in accordance with its bylaws, its proceedings are
void.”); cf. Hartstene Pointe Maint. Ass’n v. Diehl, 979
P.2d 854, 855–56 (Wash. Ct. App. 1999) (action taken
by committee not constituted as bylaws require is invalid).
Washington is not alone in requiring strict compliance with the requirements for giving proper notice of
a member meeting. Compare State Bank of Wilbur v.
Wilbur Mission Church, 265 P.2d 821, 827 (Wash.
1954), with Bangor Spiritualist Church, Inc. v. Littlefield, 330 A.2d 793, 795 (Me. 1975), and Mount Zion
Baptist Church v. Second Baptist Church of Reno, 432
P.2d 328, 329 (Nev. 1967). Petitioners might have tried
to cure their notice problems by calling another

28
meeting in conformity with the bylaws, but they never
did so. Having chosen to stand on the congregational
and corporate votes taken November 15, 2015, they
have no valid basis to claim that the congregation
chose to leave the Church.
2. The true church is not determined by a
majority vote.
Even if petitioners had managed to conduct a valid
congregational meeting, the fact that their resolutions
attracted a majority of those voting on November 15,
2015, would not mean that petitioners and their supporters became the true church and that their opponents were cast out. To the contrary:
[A]ny rule of majority representation can always be overcome, under the neutral-principles
approach, either by providing, in the . . . constitution of the general church, that the identity of the local church is to be established in
some other way, or by providing that the
church property is held in trust for the general church and those who remain loyal to it.
Jones v. Wolf, 443 U.S. at 607–08.
The Book of Order contains the very provisions
that Jones contemplates:
•

The presbytery is empowered to determine
which of two factions within a congregation is
the true church and therefore entitled to carry
on the ministry of the church using its property. “This determination does not depend

29
upon which faction received the majority vote
with the congregation at the time of the
schism.” CP 697 (G-4.0207).
• “All property held by or for a congregation . . .
is held in trust . . . for the use and benefit of the
[Church].” CP 696 (G-4.0203).
The AC determined that FPCS was in schism and
that those members who opposed petitioners were the
true church. BIO 50a. Under Washington law, such determinations merit deference regardless of whether
they accord with a majority vote. See Rohrbaugh, 485
P.2d at 619 (if the holder of record title is the church
corporation, and the members of the corporation are
the members of the Presbyterian congregation, “under
the constitution of the church, only the loyal members
of the church could be regarded as members of the congregation”); Hodel, 133 P. at 439.
Washington law requires the identity of any local
church named in a deed to be determined according to
the constitution of the denomination. That being so,
“the First Amendment requires that . . . courts give
deference to the presbyterial commission’s determination of that church’s identity.” Jones, 443 U.S. at 609.
Here the presbyterial commission—the AC—has determined the true church’s identity, and civil courts
may not override that determination. The First
Amendment bars petitioners’ plea that this Court treat
them as the true church.

30
3. Petitioners represent no one but themselves.
As the caption of this case reflects, the presbytery
and FPCS are united against petitioners. Petitioners
do not represent FPCS, the congregation, or any of its
members. To the contrary, petitioners and everyone
who supported them have withdrawn from membership, while FPCS continues to minister at its historic
site.
The Schulzes resigned as Presbyterian pastors in
December 2015. The AC removed the other petitioners
from the session in February 2016, and they may not
challenge that removal. Although petitioners assert
that they are trustees, the congregation never elected
them to that position. See CP 723 (restated articles
require that trustees be elected at the annual meeting); Pet. at 44a (trial court found that the session “installed its members as trustees of the corporation” on
October 27, 2015). Under Washington law, the fact that
petitioners were never properly elected means that
they have no basis to claim the status of a trustee.
Cf. Wilbur Mission Church, 265 P.2d at 827–28 (attempted displacement of church trustees “a nullity”
where no annual meeting of the membership had occurred); Barnett v. Hicks, 792 P.2d 150, 153 (Wash.
1990) (corporate directors lack authority to disregard
requirements in articles and bylaws).
When they vacated FPCS’s premises in 2016, petitioners formed a new corporation, Seattle First Mosaic
Church, and named themselves as its trustees. CP 106.

31
Petitioners later changed the name of their corporation
to “Disaffiliated Members of First Presbyterian
Church of Seattle,” but this entity has nothing to do
with FPCS. Petitioners’ role in a corporation oxymoronically called “Disaffiliated Members” does not permit them to claim leadership of or to act on FPCS’s
behalf.
4. FPCS has recognized the Church’s interest in FPCS-titled property.
Petitioners argue that courts must reject a denomination’s trust interest in congregational property unless there has been strict compliance with state law to
form a trust. Here there was.
Under Washington law, a trust may be created by
a “[d]eclaration by the owner of property that the
owner holds identifiable property as trustee[.]” RCW
11.98.008(2); see also RCW 11.98.011. The 1985 Restated Articles and the 2005 Bylaws are such declarations. See Peters Creek United Presbyterian Church v.
Wash. Presbytery of Pa., 90 A.3d 95, 110–12 (Pa.
Commw. Ct. 2014). The Restated Articles, adopted after the northern and southern Presbyterian churches
reunified under a constitution with an express trust
clause, recognize that FPCS exists “to promote the
worship of Almighty God . . . under the Form of Government and discipline of ‘The Presbyterian Church
(U.S.A.).’ ” CP 723. The FPCS congregation then approved the 2005 Bylaws, which state that FPCS is a
member church within the Church and “[a]ny manner

32
of church governance not addressed by these bylaws
shall be governed by” the Church constitution. CP 554.
The governing documents of a local congregation
are an “important neutral principle.” Presbytery of
Greater Atlanta v. Timberridge Presbyterian Church,
719 S.E.2d 446, 452 (Ga. 2011). Those documents
themselves can create a trust interest by adopting the
provisions of the Church Constitution. Peters Creek
United Presbyterian Church, 90 A.3d at 110–11 (in
adopting bylaws recognizing that the congregation was
subject to the Church Constitution, the congregation
created an express trust in which it held church property for the Church’s benefit); Hope Presbyterian
Church of Rogue River v. Presbyterian Church (U.S.A.),
291 P.3d 711, 724 (Or. 2012) (statements in articles of
incorporation and bylaws recognizing Church constitution and trust interest created express trust).
Moreover, even under strict neutral principles, “it
is permissible to look at the conduct of the parties after
the conveyance in ascertaining [the grantor’s] intent.”
Hope Presbyterian Church, 291 P.3d at 724. In Presbytery of Hudson River of Presbyterian Church (U.S.A.) v.
Trustees of First Presbyterian Church & Congregation
of Ridgeberry, 895 N.Y.S.2d 417, 430 (N.Y. App. Div.
2010), for example, the court noted that a trust in favor
of the presbytery was evidenced by the fact that the
congregation’s leaders had repeatedly recognized such
a trust, including when they sought the presbytery’s
consent before disposing of property.

33
Petitioners’ statements regarding the Church’s
trust interest in FPCS property confirm what the articles and bylaws say. For example, Jeff Schulz recognized that FPCS “owns its property in trust of the
Presbytery.” CP 616. FPCS’s financial statements disclosed that, under the Church constitution, “all church
land and buildings are owned by or held in trust for
the [Church],” and they described FPCS’s interest as a
“stewardship responsibility.” CP 2612–13, 2618–51.24
Even as petitioners lobbied for secession, they recommended that FPCS join “a denomination that has no
trust interest in church property.” CP 569, 563.
Petitioners have argued that FPCS’s adoption of
the 1985 Restated Articles shows no more than an intention to follow the Church constitution in ecclesiastical matters. The Restated Articles contain no such
limitation. They refer specifically to the “Form of Government” of the Presbyterian Church (U.S.A.)—i.e., the
Book of Order, which sets forth rules for church governance and resolution of property disputes. This fact
distinguishes Heartland Presbytery v. Gashland Presbyterian Church, 364 S.W.3d 575, 584 (Mo. Ct. App.
2012). The articles of incorporation in Heartland Presbytery stated that the local church was “connected with
Petitioners previously argued that FPCS’s financial statements were relevant to determining the existence of a trust. Their
expert declared that a trust interest “should be recorded, classified, and described appropriately in the financial statements of
[FPCS].” CP 2152. The expert then stated: “None of [FPCS’s] current or historic financial statements . . . identify any trust interest in favor of [the Church].” CP 2158. That statement was false.
See CP 2612, 2627, 2639, 2650.
24

34
and ecclesiastically subject to” the presbytery and the
general church. Id. at 585.
When petitioners tried to remove FPCS property
from Church ministry, they forfeited any right to such
property. See Rohrbaugh, 485 P.2d at 619–20 (“The
pastor, the trustees, and the members of the Session
who withdrew forfeited their right to govern the affairs
of the church when they did so, . . . and consequently
[they] have no right to control the use of the property.”).
Because FPCS created a trust in property that would
revert to the Church upon any attempt to secede, petitioners can make no claim to any FPCS property even
under strict “neutral principles.”
5. This case is not the right one to tackle the
chaos wrought by “neutral principles.”
As petitioners note, this Court receives many requests to resolve questions left open by Jones v. Wolf.
Nearly all such petitions reflect the challenges of attempting to translate a simple-sounding slogan—“neutral principles”—into a coherent legal doctrine.25 These
As one scholar observed in a related context, “neutrality is
nothing more than a buzzword and a dangerous one at that, because it implies that the supposedly neutral approach should be
taken more seriously because it is actually neutral.” Frank S.
Ravitch, A Funny Thing Happened on the Way to Neutrality:
Broad Principles, Formalism, and the Establishment Clause, 38
GA. L. REV. 489, 517 (2004). Academic amici and Becket use “ordinary principles” in place of “neutral principles,” but that
phrase is no less disingenuous. Lifted from Watson v. Jones, it
applies to “a church of a strictly congregational or independent
25

35
challenges do not arise under Watson v. Jones or its
polity approach, and this case does not raise them. This
Court need not consider the many problems inherent
in applying “neutral principles” until it reviews a case
that squarely raises those issues.
Although petitioners assert that this case presents
a single issue related to “local congregations and their
former denominations,” Pet. at 34, nothing could be further from the truth. There is no “former” denomination
here, and petitioners have no legal basis for asserting
that they represent the local congregation. Rather,
FPCS and its leaders—the true church as determined
by the AC in conformity with Jones and state law—are
allied with the presbytery and the denomination, and
they are the respondents in this case.
Petitioners claim that reversal would likely alter
the outcome. They are wrong. Although petitioners disparage the evidence showing FPCS’s acknowledgement of the Church’s trust interest, that evidence is
overwhelming. Petitioners also assert that the language in the articles and bylaws recognizing the
Church’s form of government “antedates FPCS’s membership in any Presbytery.” Pet. at 36. Petitioners are
wrong about this, too: FPCS was a member of a governing presbytery from its formation in 1869, long before it filed articles of incorporation with the territorial
organization, governed solely within itself . . . and to property
held by such a church[.]” 80 U.S. at 724. What these terms cannot
hide is that accepting petitioners’ and amici’s argument would result in less favorable treatment for churches than Washington
courts accord non-religious associations organized the same way.

36
government. CP 1039. In 1985, after the trust clause
was added to the Book of Order, FPCS restated its articles to make clear its membership in the Church and
allegiance to its form of government. CP 723–24. By
contrast, the articles considered in Heartland Presbytery, 364 S.W.3d at 584, were adopted in 1948, long before an express trust clause was added to the Church
constitution.
Finally, petitioners claim that FPCS “disaffiliated”
from the Church “under ordinary corporate law.” Pet.
at 37. They cite Washington statutes that apply only if
articles and bylaws do not address such issues as meeting notice and the amendment process. Those default
provisions are irrelevant here. The trial court determined that petitioners lacked authority to amend the
bylaws and that only the congregation could do so;
hence, their purported amendments were “void and
without effect.” Pet. at 34a. The trial court also found
that petitioners failed to give notice as the bylaws required. Pet. at 44a–45a. Petitioners’ assertions to the
contrary are simply false. Petitioners also ignore the
AC’s determination that they are outside the true
church, a determination that no civil court may secondguess. Jones v. Wolf, 443 U.S. at 609.
---------------------------------♦---------------------------------

37
CONCLUSION
The Washington Supreme Court, having examined
the facts in this case, declined to entertain petitioners’
arguments three times: in 2016, 2018, and 2020. This
Court should follow suit and deny the petition for certiorari.
Respectfully submitted,
ROBERT B. MITCHELL
Counsel of Record
PETER A. TALEVICH
K&L GATES LLP
925 Fourth Avenue, Suite 2900
Seattle, WA 98104-1158
(206) 623-7580
rob.mitchell@klgates.com
Counsel for Respondents

1a
THE SUPREME COURT OF WASHINGTON
THE PRESBYTERY OF
SEATTLE, et al.,
Respondents,
v.
JEFF SCHULZ and
ELLEN SCHULZ,
Appellants.

)
)
)
)
)
)
)
)
)
)
)

No. 94419-9
(consolidated with
No. 94967-1)
ORDER
(Filed May 2, 2018)
King County
Superior Court
No. 16-2-23026-1 SEA
(consolidated with
No. 16-2-03515-9 SEA)

Department I of the Court, composed of Chief Justice Fairhurst and Justices Johnson, Owens, Wiggins,
and Gordon McCloud, considered this matter at its
May 1, 2018, Motion Calendar and unanimously
agreed that the following order be entered.
IT IS ORDERED:
That this case is transferred to Division I of the
Court of Appeals.
DATED at Olympia, Washington, this 2nd day of
May, 2018.
For the Court
/s/ Fairhurst, C.J.
CHIEF JUSTICE

2a
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
THE PRESBYTERY OF
SEATTLE, a Washington nonprofit corporation; THE FIRST
PRESBYTERIAN CHURCH
OF SEATTLE, a Washington
nonprofit corporation; ROBERT
WALLACE, President of The
First Presbyterian Church of
NO. 93374-0
Seattle, a Washington nonprofit
RULING DENYING
corporation; and WILLIAM
DISCRETIONARY
LONGBRAKE, on behalf of
REVIEW
himself and similarly situated
members of First Presbyterian (Filed Oct. 7, 2016)
Church of Seattle,
Respondents,
v.
JEFF SCHULZ and ELLEN
SCHULZ, as individuals and
as the marital community
comprised thereof; and LIZ
CEDERGREEN, DAVID
MARTIN, LINDSEY
McDOWELL, GEORGE NORRIS,
NATHAN ORONA, and
KATHRYN OSTROM, as trustees of The First Presbyterian
Church of Seattle, a Washington
nonprofit corporation,
Petitioners.

3a
Petitioners in this case seek direct discretionary
review of a partial summary judgement order declaring the following: that respondent Presbytery of Seattle, through its Administrative Commission, governs
the First Presbyterian Church of Seattle (FPCS);
that the Commission’s findings and rulings are conclusive and binding; and that FPCS property is held in
trust for the benefit of the national organization, Presbyterian Church (U.S.A.).1 This partial summary judgment order does not adjudicate all the claims in this
matter, and therefore is subject only to discretionary
review until the entry of a final judgment. RAP 2.2(d).
As applicable here, RAP 2.3(b) provides that discretionary review of an interlocutory superior court decision is available only if (1) the court committed obvious
error that renders further proceedings useless, (2) the
court committed probable error that substantially alters the status quo or limits the freedom of a party to
act, or (3) the court so far departed from the usual
course of judicial proceedings as to call for appellate
review. Although discretionary review may be requested under these circumstances, such piecemeal review is disfavored. Fox v. Sunmaster Prods., Inc., 115
Wn.2d 498, 505, 798 P.2d 808 (1990); Hartley v. State,
103 Wn.2d 768, 773, 698 P.2d 77 (1985).

The deputy commissioner previously denied the petitioners’
motion to stay all superior court proceedings and enjoin all actions seeking to enforce or implement the declaratory judgment
pending review. The facts as related in that ruling are summarized again here.
1

4a
This case arises from a vote by some members of
the congregation of FPCS to disaffiliate from the national religious organization Presbyterian Church
(U.S.A.) and the Presbytery of Seattle, and to adopt
new articles of incorporation and bylaws providing
that FPCS is not subject to the authority of the Presbyterian Church (U.S.A.) or its form of government.
The Presbytery of Seattle, acting pursuant to the constitution of Presbyterian Church (U.S.A.), appointed
an Administrative Commission to conduct an investigation and issue a report and take action in light of the
results of the investigation. Subsequently, the Administrative Commission adopted resolutions stating that
it assumed original jurisdiction with the full power of
the session of FPCS, and that the individuals “who previously constituted the session and the officers, directors, or board of trustees” no longer had authority with
respect to FPCS’s ministry, business dealings, or property.2 Those specified individuals maintained that they
still constituted the duly elected board of trustees of
FPCS, that through their actions FPCS had severed all
ties with the Presbyterian Church (U.S.A.), and that
the commission had no authority over them. Disputes
arose concerning who was entitled to FPCS property,
funds, and accounts receivable. Copastors Jeff Schulz
and Ellen Schulz and those who maintain they are the
duly elected board of trustees of FPCS declined the
The “session” is the governing body of the local church on
ecclesiastical matters, composed of the pastor or pastors and the
elders of the local church, while the board of trustees governs
business and property interests. FPCS’s session also acts as its
board of trustees.
2

5a
Administrative Commission’s directions to vacate the
church property, turn over books and records, and return funds that had been placed in a law firm trust account.
The Presbytery of Seattle and individuals who the
Administrative Commission elected as FPCS officers
(respondents herein) filed suit against the Schulzes
and the individuals who maintain they are the proper
board of trustees of FPCS (petitioners herein). Respondents moved for partial summary judgment on
their claim for declaratory relief. Petitioners sought a
motion for a continuance under CR 56(f ) and also filed
a motion for a preliminary injunction prohibiting respondents from carrying out the Administrative
Commission’s resolutions. The superior court denied
petitioners’ request for a continuance, concluding that
petitioners had already thoroughly responded to the
motion for partial summary judgment and failed to
show that the additional discovery they requested
would provide additional support for their assertion
that a genuine issue of fact exists as to whether Presbyterian Church (U.S.A.) is hierarchical. The superior
court then granted respondents partial summary judgment and entered a declaratory judgment finding that
Presbyterian Church (U.S.A.) is a hierarchical church
in which the determinations of the Presbytery of Seattle, through its Administrative Commission, are conclusive and binding on the session, trustees, and
congregation of FPCS, and that any interest that FPCS
has in church property is held in trust for the benefit
of the Presbyterian Church (U.S.A.). Further, the court

6a
determined that the current governing body of FPCS
is the body elected by the Administrative Commission.
The court additionally found that FPCS is governed by
the Restated Articles of Incorporation adopted in June
1985 and the bylaws adopted in May 2005, and it held
void the recent amendments to the articles of incorporation and bylaws that the congregation had voted to
approve providing that FPCS was not subject to the
authority of the Presbyterian Church (U.S.A.) or its
governance documents.
The superior court also denied petitioners’ motion
for a preliminary injunction against implementation of
the Administrative Commission’s resolutions, finding
they had not shown (1) a clear legal or equitable right,
(2) a well-grounded fear of immediate invasion of that
right, and (3) that the acts complained of would result
in actual and substantial injury. See Huff v. Wyman,
184 Wn.2d 643, 651, 361 P.3d 727 (2015). As to the first
criterion, the court found that the rights at issue were
conclusively determined by the Administrative Commission, citing the same authority on which it had
based the declaratory judgment. See Presbytery of
Seattle, Inc. v. Rohrbaugh, 79 Wn.2d 367, 373, 485 P.2d
615 (1971) (in the absence of fraud, where a right of
property in an action before a civil court depends upon
a question of doctrine, ecclesiastical law, rule or custom, or church government, and the question has been
decided by the highest tribunal within the organization to which it has been carried, the civil court will
accept that decision as conclusive). The court also
concluded that, even if neutral principles of law were

7a
applied as a means of adjudicating the church property
dispute, an approach described in Jones v. Wolf 443
U.S. 595, 99 S. Ct. 3020, 61 L. Ed. 2d 775 (1979), and
advanced by petitioners, the Presbytery of Seattle
would still be entitled to the use and possession of
the property by virtue of the 2005 Restated Article of
Incorporation and bylaws that incorporated a Book of
Order provision that the property held by and for the
congregation is held in trust for the Presbyterian
Church (U.S.A.). As to the second and third criteria, the
court observed that petitioners had continued to worship in the FPCS chapel while congregants who opposed their actions worshiped elsewhere, and that
respondents had not interfered with any bank accounts in the name of FPCS and had decided to await
a prompt resolution of the action before contacting entities (such as Diamond Parking and Seattle Classical
Christian School) that have contractual obligations to
FPCS. The court found petitioners had not met their
burden of showing that any fear of immediate invasion
of a right was well grounded or that the acts complained of would result in actual and substantial injury.
Petitioners moved for reconsideration of the orders denying a continuance, granting declaratory judgment, and denying a preliminary injunction. The
superior court denied reconsideration of all of these
matters, and petitioners now seek this court’s direct
discretionary review of each of these orders.
In seeking review, the petitioners first assert that
the superior court committed obvious or probable error

8a
in failing to apply a “neutral principles of law” analysis
to the facts presented by this matter. As noted, in Jones
the Supreme Court recognized a “neutral principles of
law” analysis as one of several acceptable approaches
civil courts may follow in resolving church property
disputes. Historically, the Supreme Court’s first approach to the role of civil courts in adjudicating church
property disputes was outlined in Watson v. Jones, 13
Wall. 679, 80 U.S. 679, 20 L. Ed. 666 (1871). There the
Supreme Court concluded that where individuals had
organized themselves into a voluntary religious association, and had agreed to be bound by the decisions of
the governing hierarchy of the association, the civil
courts were compelled to give deference to the final
decisions of the organization’s hierarchical authorities.
In Rohrbaugh this court adopted the approach in Watson, which it summarized as setting forth the rule that
“the decision of the highest tribunal of a hierarchical
church to which an appeal has been taken should be
given effect by the courts in a controversy over the
right to use church property.” Rohrbaugh, 79 Wn.2d at
372. The court observed that historically it had applied
a similar rule under which “in the absence of fraud,
where a right of property in an action before a civil
court depends upon a question of doctrine, ecclesiastical law, rule or custom, or church government, and the
question has been decided by the highest tribunal
within the organization to which it has been carried,
the civil court will accept that decision as conclusive.”
Id. at 373. The court saw no reason to abandon the rule.
Id.

9a
Fifteen years later, in Church of Christ at Centerville v. Carder, 105 Wn.2d 204, 208, 713 P.2d 101
(1986), this court observed that First Amendment case
law subsequent to its decision in Rohrbaugh had recognized three ways in which a property dispute in a
hierarchical church setting may be addressed: (1) pursuant to Watson, which requires deference to the
highest hierarchical body; (2) according to neutral
principles of law which may not necessarily coincide
with the highest hierarchical body’s decision, as set
forth in Jones; and (3) according to any state legislation
that governs church property arrangements in a manner that precludes state interference in doctrines. But
no hierarchical church was involved in Carder and
thus “[t]here is no higher church body to which the aggrieved parties can appeal or to which this court can
defer.” Id. at 208. Here, petitioners acknowledge that
this court “has not squarely addressed the issue since
Jones,” but argue that discussion in recent decisions
presages future application of neutral principles to resolve disputes such as those presented in this matter.
In support of this proposition, petitioners cite the descriptions of Jones in the lead opinion in Erdman v.
Chapel Hill Presbyterian Church, 175 Wn.2d 659, 67576, 286 P.3d 357, 367 (2012) (Madsen, C.J., with three
justices concurring; two justices concurring in the result) (observing that use of the neutral principles of
law approach was applied to a church property dispute
in Jones, but stating that the neutral principles of law
approach was not the proper approach to address
claims of negligent retention and supervision of the
church minister). Three justices “strongly disagree[d]

10a
with the lead opinion that we should reject the ‘neutral
principles of law’ approach approved by the United
States Supreme Court in Jones.” Id. at 692 (Chambers,
J., dissenting in part and concurring in part). Petitioners also cite decisions from other jurisdictions that
have applied the Jones approach in circumstances
where the court could resolve a property dispute without reference to church doctrine.
These opinions may illustrate that the legal question is at least arguable, and that this court may be
asked to consider whether changes in the legal context
after Rohrbaugh warrant revisiting the question. But
the various opinions in Erdman do not show that the
preferred approach to resolution of church property
disputes has indeed changed. Petitioners’ showing
that there is a debatable issue falls far short of demonstrating the superior court committed obvious or probable error as required by the review criteria of RAP
2.3(b)(1) and (2).3

Petitioners also claim there is conflict among the decisions
of the Court of Appeals. See Choi v. Sung, 154 Wn. App. 303, 225
P.3d 425, review denied, 169 Wn.2d 1009 (2010) (Washington Supreme Court has disavowed the Jones “neutral principles of law”
approach and exclusively adopted the Watson “compulsory deference” approach to address property disputes in a hierarchical
church setting) and In re Marriage of Obaidi & Qayoum, 154 Wn.
App. 609, 226 P.3d 787, review denied, 169 Wn.2d 1024 (2010)
(applying neutral principles of contract law to a prenuptial agreement that was based on Islamic law). But a conflict among the
published decisions of the Court of Appeals is a criterion for review of a Court of Appeals decision terminating review. See RAP
13.4(b).
3

11a
Further, it is unclear whether a court reviewing
the superior court decision in this matter will find it
necessary to choose among the different acceptable
methods for resolving church property disputes. In its
order denying the petitioners’ motion for a preliminary
injunction, the superior court concluded that even if
the neutral principles of law approach applied, the petitioners would not be entitled to relief. The superior
court reasoned that since the FPCS’s restated articles
of incorporation and 2005 bylaws incorporated a provision of the Book of Order that property held by the congregation was held in trust for the Presbyterian
Church (U.S.A.), as further reflected in FPCS’s financial statements until 2015, the petitioners’ rights to
the property ended when they ceased to use it for the
benefit of the Presbyterian Church (U.S.A.). Petitioners
dispute that FPCS ever consented to hold the property
in trust for another entity. But regardless of the relative weight of the parties’ positions, the potential that
the legal issue petitioners present would not be
reached is further indication that interlocutory review
is not appropriate.
Next, the petitioners argue that the superior court
committed obvious or probable error in entering summary judgment on the basis that Presbyterian Church
(U.S.A.) is a hierarchical church. Petitioners submitted
the declaration of an expert witness who is an ordained
minister and former church leader and who has authored papers on the constitution and governance of
the Presbyterian Church (U.S.A.). Petitioners contend
this declaration created a genuine issue of fact as to

12a
whether Presbyterian Church (U.S.A.) is a hierarchical
church. However, petitioners point to no clear decisional law in Washington on the extent to which a
court may consider the testimony of an expert witness
as to the meaning of a denomination’s constitution,
and whether the court may weigh that interpretation
against a contrary interpretation of the tribunals
that the denomination has vested with interpretative
authority. This is an issue that has been considered by
the courts in some other states. See, e.g., Lamont Cmty.
Church v. Lamont Christian Reformed Church, 285
Mich. App. 602, 618, 777 N.W.2d 15 (2009) (stating that
if a denomination’s constitutional provisions are not so
express that the civil courts can enforce them without
engaging in an searching inquiry into church polity,
the courts must accept the interpretation of the church
constitution provided by the denomination’s authorities). Petitioners protest that this analysis is circular
when the very question at issue is whether a religious
organization’s structure is hierarchical, and the underpinning for deference to the denomination’s tribunal is the premise that the religious organization is
hierarchical. But for purposes of this motion for discretionary review, I need only determine whether the
petitioners have demonstrated that the superior court
committed probable or obvious error. They have failed
to do so. Even in states that apply a neutral principles
approach to church property disputes, courts have disagreed over whether express provisions in a denomination’s constitution are dispositive on the creation of
a trust, and whether or what additional evidence is appropriate to examine. See Hope Presbyterian Church of

13a
Rogue River v. Presbyterian Church (U.S.A.), 352 Or.
668, 685-86, 291 P.3d 711 (2012) (discussing cases).
Petitioners’ arguments highlight the difficult task civil
courts face in adjudicating such matters without becoming entangled in questions of religious doctrine
and practice. But they have not shown that the superior court’s determination here, that there was no genuine issue of material fact that precluded summary
judgment, is contrary to any controlling authority on
this issue.
Finally, petitioners argue the superior court committed obvious or probable error in failing to grant
their CR 56(f ) motion for a continuance to allow them
to obtain answers to discovery requests that they had
propounded on the issue of whether Presbyterian
Church (U.S.A.) is a hierarchical church. But the superior court denied the continuance on the basis that petitioners did not show a likelihood that these requests
would result in additional noncumulative information
pertinent to resolution of the partial summary judgment motion. In this context, the question of whether
a continuance should have been granted and whether
petitioners can show they suffered any resulting prejudice is closely related to the appropriate scope of the
civil court’s inquiry as to whether a religious organization is hierarchical. As discussed above, I cannot say
that the superior court committed probable or obvious
error in its determination of what evidence is properly
considered in a civil court’s resolution of this question.
It follows that I cannot say that the court’s denial of a

14a
continuance until discovery requests on this point
were answered was obvious or probable error.
The motion for discretionary review is denied. My
conclusion that discretionary review is not warranted
under RAP 2.3(b) makes it unnecessary to decide
whether direct review would be appropriate. RAP 4.2.
/s/ Narda Pierce
COMMISSIONER
October 7, 2016

15a
Report of the Administrative Commission
for First Presbyterian Church of Seattle
February 16, 2016
Executive Summary
After thoroughly investigating allegations of mismanagement by the leadership of First Presbyterian
Church of Seattle (FPCS), the Administrative Commission for FPCS has determined that the governing
board of FPCS (the FPCS session) is unable or unwilling to manage wisely its affairs. The Administrative
Commission has, therefore, assumed original jurisdiction with the full power of the session, in accordance
with the Constitution of the Presbyterian Church
(U.S.A). This decision was not arrived at lightly, but
after much prayer and deliberation.
Seattle Presbytery appointed the Administrative Commission (AC) on November 17, 2015, and assigned it a
number of responsibilities. First, the AC was asked to
reiterate the Presbytery’s invitation to the FPCS session to enter into the Presbytery’s Communal Discernment and Gracious Separation process. Second, the AC
was directed to investigate “ . . . allegations, admissions, and events [which] suggest that the session is
affected with disorder and call into question its ability
and willingness to exercise its authority and manage
wisely its affairs.” And third, the AC was instructed to
take actions it deemed appropriate based upon its findings. The accompanying Report of the Administrative
Commission for First Presbyterian Church of Seattle
describes how the AC discharged the responsibilities

16a
entrusted to it. It sets forth detailed findings and identifies the actions taken by the AC.
The Report’s findings focus on the conduct of the session and former co-pastors of FPCS. The AC determined that the FPCS leadership:
• Failed to follow the Constitution of the Presbyterian Church (U.S.A) and its own procedures;
• Failed to be truthful and forthcoming with its own
congregation, ministry partners, and the Seattle Presbytery; and
• Failed to wisely manage the affairs of the church
FPCS leadership attempted to declare unilaterally
that FPCS is no longer a part of the Presbyterian
Church (U.S.A.) and not subject to the jurisdiction of
the Presbytery. The FPCS session did this rather than
engage in the process set forth in the Presbytery’s
Communal Discernment and Gracious Separation
Policy.
The AC extended repeated invitations to FPCS leadership to enter into the Gracious Separation process,
which were ignored or rebuffed.
The AC also repeatedly invited the FPCS session to engage in a non-conditional meeting “ . . . to listen to your
concerns, to build trust, and to find a way forward.” The
FPCS session refused these invitations and responded
that they would meet only if the AC agreed to legal
conditions that would treat any such meeting not as

17a
part of the AC’s ecclesiastical process but rather as a
confidential “settlement” negotiation.
The AC determined that the FPCS session’s attempt to
amend the existing bylaws of the church on October 27,
2015, was improper and ineffective, as was the congregation’s subsequent vote to “disaffiliate” from the Presbyterian Church (U.S.A.). Therefore, the existing
bylaws, adopted on May 8, 2005, remain in effect. The
church remains a part of the Presbyterian Church
(U.S.A.) because it has not been dismissed – a step that
only the Presbytery is constitutionally authorized to
take.
The Constitution of the Presbyterian Church (U.S.A.)
also requires that a congregation may be released only
to another Reformed body. No Reformed body has advised the Presbytery that it is prepared to accept the
FPCS congregation. In addition, some members of the
congregation want to remain within the Presbyterian
Church (U.S.A.). The AC has concluded that the actions
of the FPCS session have caused a schism within the
congregation and those who disagree with the actions
of the FPCS session constitute the “true church,” in accordance with the denomination’s Constitution.
The AC reviewed pertinent available documents, but
the FPCS session refused to provide any documents
requested by the AC. The AC also met with and received information from more than 45 individuals. The
AC’s investigation confirmed the allegations made to
the Presbytery about the FPCS session. It also revealed additional irregularities in the records and the

18a
finances of the church and a broad-based pattern of
misconduct by the former co-pastors.
Because the former co-pastors of FPCS renounced the
jurisdiction of the Presbyterian Church (U.S.A.) effective December 16, 2015, leaving the church without a
pastor, the AC has appointed an interim pastor.
In summary, the AC conducted a thorough investigation and afforded the FPCS session a full opportunity
to be heard. But the FPCS session refused to produce
any records, and it refused to meet with the AC except
under unacceptable conditions. Despite this non-cooperation, the AC’s investigation, as reflected in the Report, confirmed allegations and identified additional
irregularities, which together show a broad-based pattern of misconduct by the FPCS leadership.
The AC has advised the persons who previously constituted the FPCS session that they no longer may act
in that capacity. The AC has elected church officers
and has appointed an individual to handle administrative matters. It also has called for an audit of the
church’s finances. The AC expects to supplement this
report after it has had an opportunity to review
church records.

19a
Report of the Administrative Commission
for First Presbyterian Church of Seattle
February 16, 2016
Background
On July 21, 2015, Seattle Presbytery (the “presbytery”) authorized its moderator to name a Committee
for Special Administrative Review or CSAR “to review
allegations and concerns raised regarding Seattle First
Presbyterian Church, including the work of COM [the
presbytery’s Committee on Ministry] in relationship to
Seattle First Presbyterian Church,” and to report to
the presbytery any recommendations from that review.
The CSAR made its recommendations in a report to
the presbytery dated December 5, 2015.
In the course of the CSAR’s work, two elders on
the session of First Presbyterian Church of Seattle
(“FPCS”) raised many new allegations and concerns,
which the CSAR regarded as beyond the scope of its
charge. These allegations included that the FPCS session:
1.

was unwilling to utilize the Communal Discernment and Gracious Separation policy approved by the presbytery;

2.

was following a detailed strategy involving
the establishment of a separate corporation
and was planning to engage the presbytery in
a long legal battle;

3.

was contemplating the possible transfer of
the congregation’s funds (restricted and

20a
otherwise) to this separate corporation or its
lawyers;
4.

was considering naming the current elders to
a separate board of this corporation;

5.

had held unauthorized meetings of the session with irregularities in proceedings, including failure to vote on duly moved and
seconded motions;

6.

had kept inaccurate record of actions taken
and had restricted access to minutes [G3.0107; see G-3.0108b]1;

7.

had given no opportunity or provision for dissent [G-3.0105a and 3.0105b] and had isolated and intimidated elders who expressed
their conscience [G-2.0105]; and

8.

had not apprised the congregation about the
matters stated above.

The presbytery directed the FPCS session to produce documents. In response, the FPCS session2 wrote
the presbytery on October 30, 2015, as follows:

All citations in this report refer to provisions of the Constitution of the Presbyterian Church (U.S.A.), Part II, Book of Order,
2015-2017. The Book of Order describes the polity and form of
government of the Presbyterian Church (U.S.A.). “Each congregation of the Presbyterian Church (U.S.A.) shall be governed by this
constitution.” [G-1.0103]
2
By the time that this response was written, resignations
had reduced the FPCS session to the following individuals: Liz
Cedergreen, David Martin, Lindsey McDowell, George Norris,
Nathan Orona, and Kathryn Ostrom, along with then co-pastors
Jeff and Ellen Schulz as moderators of session. Church records
1

21a
1.

“On Tuesday, October 27, 2015, the Session
voted to reestablish the FPCS Board as a body
separate from the Session. The FPCS Board is
governed by the Corporation’s Articles of Incorporation and Corporate Bylaws, as well as
the provisions of the Washington Nonprofit
Corporation Act, and is not subject to the
authority of the Presbytery of Seattle (‘Presbytery’) or the PCUSA Book of Order. Nevertheless, as an accommodation to the FPCS
Session, the FPCS Board has authorized the
Session to provide the following information
to Presbytery: The Board held a meeting following the FPCS Session meeting on October
27, 2015.”

2.

“[A]ll assets of FPCS are owned by and under
the control of the Corporation, and are therefore not subject to Presbytery authority. Nevertheless, as an accommodation to the FPCS
Session, the FPCS Board has authorized the
Session to provide a copy of the Corporation’s
most recent financial statements.”

3.

“The Corporation transferred approximately
$420,000 into the trust account of law firm
Lane Powell PC in October 2015.”

On November 15, 2015, the congregation of FPCS
voted to “disaffiliate” from the Presbyterian Church
(U.S.A.), to ratify changes to the bylaws of the congregation and the corporation that the FPCS session had
indicate that Lindsey McDowell, George Norris, and Nathan
Orona have now been on the FPCS session more than six consecutive years, which is contrary to G-2.0404.

22a
adopted on October 27, 2015, and to amend the articles
of incorporation of the church. The presbytery had advised the FPCS session before November 15, 2015, that
these actions were out of order, that only the presbytery can dismiss a congregation, and that the Book of
Order does not allow proxy voting. The FPCS session
ignored this advice.
A special meeting of the presbytery took place on
November 17, 2015, for the purpose of considering the
circumstances summarized above. By a vote of 136 to
8, with three abstentions, the presbytery approved a
resolution appointing an administrative commission to
work on the presbytery’s behalf with the following purposes and authority:
1.

“to reiterate the presbytery’s invitation to the
session of First Presbyterian Church of Seattle (FPCS) to enter into the presbytery’s Communal Discernment and Gracious Separation
policy and, if that invitation is accepted, to appoint the members of the Discernment Team;

2.

“to require or request, have access to, receive,
and review all documents of FPCS, including
but not limited to business and financial records of the congregation and the corporation
[G-3.0107, G-3.0108, G-3.0204];

3.

“to ensure that the provisions of the Constitution are followed in the governance of FPCS,
including but not limited to G-4.0101, G4.0102, G-4.0202, and G-4.0204;

23a
4.

“to direct that corrective action be taken if
matters are determined to be out of compliance with the Constitution [G-3.0108c];

5.

“to make provision for and to name a moderator [G-1.0504 and G-3.0201];

6.

“to call meetings of the congregation [G1.0502] and the session [G-3.0203], if necessary, to transact business in accordance with
the Book of Order;

7.

“if it becomes evident that the church is in
‘schism,’ to determine the ‘true church’ within
the Presbyterian Church (U.S.A.) in this matter [G-4.0207];

8.

“to thoroughly investigate and provide a full
opportunity for the session to be heard, and if
it concludes that the session is unable or unwilling to manage wisely its affairs, to assume
original jurisdiction with the full power of the
session [G-3.0303e];

9.

“to consult with ruling elders and teaching elders, to provide written notice of disapproval,
and, if the ruling or teaching elder persists in
the work, to conclude that he or she has renounced the jurisdiction of the Presbyterian
Church (U.S.A.) [G-2.0407; G-2.0509];

10. “if necessary, to dissolve pastoral relationships, both temporary and installed, fully observing the due process requirements of the
Constitution [G-2.0901ff.];

24a
11. “to consider the viability of the congregation
and make recommendations to the presbytery
in that regard;
12. “to negotiate terms for the dismissal of the
congregation if it becomes evident that a sufficient majority of the active membership desires to be dismissed to another Reformed
body, utilizing the presbytery’s Communal
Discernment and Gracious Separation Policy;
13. “to safeguard all property of FPCS, which continues to be held in trust for the use and benefit of the Presbyterian Church (U.S.A.), and
to determine the ownership of any FPCS
property that has been transferred to third
parties; and
14. “to seek relief in civil court, if necessary,
and/or to respond to court actions instituted
by others, to remedy any omission, error, or
misdeed on the part of the session, the congregation, or the trustees (or any other entity
that purports to act or have acted on behalf of
FPCS).”
The presbytery appointed the following eight individuals to serve as members of the Administrative
Commission:
• Steve Aeschbacher (Ruling Elder, Bellevue
Presbyterian Church)
• Heidi Husted Armstrong (Teaching Elder,
Member-at-large)
• Shelley Dahl (Ruling Elder, University Presbyterian Church)

25a
• J.P. Kang (Teaching Elder, Japanese Presbyterian Church)
• Bill Longbrake (Ruling Elder, First Presbyterian Church of Seattle)
• Jonathan Siehl (Teaching Elder, Honorably Retired)
• Kathy Smith (Commissioned Ruling Elder,
North Point Church)
• Bob Wallace (Ruling Elder, Bellevue Presbyterian Church)
Proceedings of the Administrative Commission
At its initial meeting on November 18, 2015, the
Administrative Commission elected Shelley Dahl and
Steve Aeschbacher as co-moderators. After reviewing
and discussing background documents, the Administrative Commission determined that letters should be
sent to the FPCS session identifying concerns, requesting additional documents, and inviting the FPCS session to appear before the Administrative Commission
on December 4, 2015, at 3:00 p.m. to address the issues
described in the Administrative Commission’s charter.
The letters were sent to the FPCS session on November 20, 2015.
The FPCS session did not respond. Instead, its
lawyers wrote a letter dated December 1, 2015, to the
presbytery’s legal counsel. This letter asserted: “Because the AC [Administrative Commission] has no ongoing ecclesiastical or legal authority over the Church

26a
or the Corporation, its production requests, stated areas of inquiry, and the Presbytery’s discernment and
dismissal process are moot and require (and will therefore receive) no further response.” The Administrative
Commission did not receive any other response to its
request for documents from the FPCS session, and no
member of the FPCS session attended the meeting of
the Administrative Commission on December 4, 2015.
The Administrative Commission continued to encourage the FPCS session to appear before it. To that
end, the Administrative Commission twice rescheduled the meeting time that it had initially offered, to
December 16 and then to December 17, 2015. The Administrative Commission also advised the FPCS session that its appearance would be without prejudice to
any argument that it was no longer under the authority of the presbytery. The lawyers for the FPCS session
assured the Administrative Commission that the
FPCS session was available at the appointed hour, but
they refused to permit any meeting to occur except under conditions that would treat the session’s meeting
with the Administrative Commission in this ecclesiastical proceeding as if it were a litigation settlement
conference and that would preclude the Administrative Commission from disclosing the fact or the substance of the meeting. The Administrative Commission
could not accept those conditions. Once again, despite
repeated invitations, no member of the FPCS session
attended the meeting of the Administrative Commission on December 17, 2015.

27a
On December 18, 2015, the Administrative Commission again wrote to the FPCS session, urging it to
engage with the Commission and to “step out from behind your lawyer and communicate with us so we can
hear more of your perspectives . . . .” On December 30,
2015, the FPCS session responded. It stated that
“FPCS is no longer affiliated with the Presbytery. Engaging in an investigation or having an ‘opportunity to
be heard’ is not appropriate . . . .” The Administrative
Commission replied on December 31, 2015, reiterating
its invitation to the FPCS session to appear and participate in the Administrative Commission’s meeting
on January 7, 2016, to which members of the presbytery, members of FPCS, and other interested persons
had been invited. But again the FPCS session did not
appear.
At the Commission’s meeting on January 7, several members of the presbytery lamented the breakdown in communication between the FPCS session and
the presbytery. They also voiced concern that the lawyers had become an impediment to open communication. With that encouragement, the Administrative
Commission wrote to the FPCS session on January 11,
2016, inviting the session members to a non-conditional listening meeting on January 20, 2016, from
which all lawyers, staff, and spokespersons would be
excluded and at which no notes would be kept. The
FPCS session said that it would attend only if the Administrative Commission agreed that the fact of the
meeting, its participants, and any communications or
actions relating to the meeting would never be used as

28a
evidence in any legal proceeding. This would preclude
the Administrative Commission from reporting to the
presbytery the fact of the meeting or, if it did, from using its report in any subsequent proceeding, including
one initiated by the FPCS session.
Even though such conditions were inconsistent
with a non-conditional meeting and betrayed the influence of persons who were not supposed to be part of
such a meeting, the Administrative Commission offered a revised agreement that would bar participants
from publicly attributing any statement to any
speaker (either by name or position) without that person’s permission. The Administrative Commission also
agreed not to use the FPCS session’s appearance at the
meeting as evidence that it acknowledged the continuing jurisdiction of the presbytery. But the FPCS session rejected that proposal, insisting that the January
20 meeting occur on its terms or not at all. The meeting
did not occur.
Besides reaching out repeatedly to the FPCS session, the Administrative Commission invited all interested persons to provide input about the matters
before it. The Administrative Commission also followed up with everyone who contacted it. In addition
to holding meetings and gathering information from
members of the Administrative Commission and presbytery staff, the Administrative Commission interviewed and/or received information from 14 ruling
elders, 18 teaching elders, and 27 current or former
members, attenders, and employees of FPCS (some
categories overlap):

29a
Judy Andrews
John Baker
Becki Barrett

Steven B. Bass

Michael Bennett
Tiesa Blankenship
Lynne Faris Blessing
Gordy Boyd
Carla Brown
Claudie Cassady

Mark Cassady
Colleen Chinen

Ruling Elder at Woodland
Park Presbyterian Church
FPCS member
Teaching Elder, Overlake
Park Presbyterian Church;
Committee for Special Administrative Review
CPA who conducted audits
and financial reviews of
FPCS for many years up to
and including 2010 and
who interacted with members of the FPCS session in
2013-14
Ruling Elder and former
FPCS member who served
on session
Former FPCS employee
Teaching Elder, Bethany
Presbyterian Church
Ruling Elder and Union
Church member
FPCS bookkeeper, 2007early 2010
Former FPCS member and
former FPCS Operations
Committee and Nominating Committee member
Ruling Elder and former
FPCS member who served
on session
Ruling Elder, Steel Lake
Presbyterian Church; comoderator, Committee on
Ministry

30a
Fred Choy
Peter Chung
Sheri Edwards Dalton
Barbara Danhoff
Susan Denton
Tyler Easley

Nancy Emerson

Dave Erland

Brian Fuson
Mona Gacutan
Melinda Glass

Larry Grounds

Teaching Elder, Seattle
Community Church
Ruling Elder, Seattle Community Church
Teaching Elder and Seattle
Presbytery member-atlarge
FPCS bookkeeper, 20102013
FPCS member
Teaching Elder and Seattle
Presbytery member-atlarge; Committee for Special Administrative Review
Ruling Elder (Wabash Valley Presbytery, Indiana);
Exeter House resident and
FPCS visitor
Ruling Elder, Sammamish
Presbyterian Church; Committee for Special Administrative Review
Former FPCS attender
Ruling Elder and FPCS
member who served on session until October 25, 2015
Ruling Elder, Lake Burien
Presbyterian Church; Committee for Special Administrative Review
Teaching Elder, Redmond
Presbyterian Church; former co-moderator, Committee on Ministry

31a
Julie Gustavson
Jerry Hardcastle
Gail Irving
Mansour Khajehpour

Neal Lampi
David Lepse

Della Lium

Jim Lium

Scott Mann

Will Mason

Ruling Elder and former
FPCS member who served
on session
Exeter House resident;
FPCS visitor (member,
Trinity Episcopal Church)
Teaching Elder and FPCS
Shelter Team employee
Teaching Elder and Operations Manager at FPCS
from January 2013 until
July 2014
Ruling Elder and FPCS
member who served on session until October 27, 2015
Former assistant organist
and sexton at FPCS (19872007); current musician at
Exeter House
Ruling Elder, Brighton
Presbyterian Church; Exeter House resident and
FPCS attender
Ruling Elder, Brighton
Presbyterian Church; Exeter House resident and
FPCS attender
Teaching Elder, Bellevue
Presbyterian Church, and
Moderator of Seattle Presbytery
Teaching Elder, Steel Lake
Presbyterian Church; former co-moderator, Committee on Ministry

32a
Jack Merner

James B. Notkin
Binh Nguyen
Lyle Oliver
Cindy O’Sullivan
Rajat (RJ) Parsad
Jane Pauw
Charles Peet
Michelle Perrigo
Steve Quant
Dale Sewall
Dick Steele
Elizabeth Steele
Laurinda Steele

Teaching Elder, Cascades
Presbytery; Exeter House
resident and FPCS attender
Teaching Elder, Union
Church
Director of Southeast Asia
Ministries, Seattle Presbytery
Deacon and Ruling Elder;
Exeter House resident and
current FPCS attender
FPCS Shelter Team member
FPCS member
Teaching Elder, Rainier
Beach Presbyterian
Church
Teaching Elder; Exeter
House resident and FPCS
visitor
Former FPCS member; former worship team member
and small group leader
FPCS Shelter Team member
Teaching Elder, Honorably
Retired
Teaching Elder; Exeter
House resident and FPCS
attender
Exeter House resident
FPCS member

33a
Vonna Thomas
Kelly Wadsworth

Teaching Elder and Seattle
Presbytery member-atlarge
Teaching Elder/Validated
Ministry (Exeter House
chaplain)

Findings of the Administrative Commission
Having carefully and prayerfully considered the
information before it in light of the authority, roles, and
responsibilities that the presbytery has entrusted to it,
the Administrative Commission makes the following
findings:
1.

The Administrative Commission reiterated to
the FPCS session multiple times the presbytery’s invitation to enter into the Communal
Discernment and Gracious Separation process. See, e.g., letters to FPCS session dated
November 20, 2015, and December 18, 2015.
The FPCS session ignored or explicitly rejected every invitation to follow the presbytery’s Communal Discernment and Gracious
Separation policy.

2.

The presbytery’s Communal Discernment and
Gracious Separation Policy constitutes the
only policy under which a congregation in the
presbytery may be dismissed or otherwise
separated from the Presbyterian Church
(U.S.A.).

3.

The presbytery has received no request from
another Reformed denomination to dismiss

34a
the FPCS congregation. Nor has the presbytery received any information suggesting that
another Reformed denomination is willing to
receive the FPCS congregation.
4.

By written statement submitted to the stated
clerk of the presbytery, Jeff and Ellen Schulz,
until then the co-pastors of FPCS,3 renounced
the jurisdiction of the Presbyterian Church
(U.S.A.). In accordance with G-2.0509, renunciation is effective upon receipt, and the
Schulzs’ letter was received by the presbytery
on December 16, 2015.

5.

Under G-2.0509, renunciation of jurisdiction
removes a pastor from membership in the
presbytery and terminates the exercise of the
pastor’s ministry. The roles occupied by Jeff
and Ellen Schulz as co-pastors at FPCS therefore ended on December 16, 2015, leaving
FPCS without any pastor. On January 19,
2016, the stated clerk reported the Schulzs’
renunciation at a meeting of the presbytery,
and their names were deleted from the roll.

6.

The Administrative Commission requested
documents from the FPCS session, including
business and financial records of the congregation and the corporation. The Administrative
Commission was entitled to such documents
under G-3.0108b. The FPCS session refused to
comply with the Administrative Commission’s

In this report, “pastor” refers to a teaching elder and minister of the Word and Sacrament who has been called by a congregation and installed in a pastoral relationship. See G-2.0501,
G-2.0504a.
3

35a
requests. This refusal violates G-3.0108 and
G-3.0202.
7.

On October 30, 2015, the FPCS session sent to
the presbytery audited financial statements
for 2014. The Administrative Commission has
questions about these statements, which were
the first CPA-reviewed statements for FPCS
since 2010.

8.

Multiple witnesses supplied the Administrative Commission with credible reports of financial irregularities involving the FPCS
session. These irregularities include but are
not limited to the following: tampering with
the books; failing to reconcile bank statements and to balance the general ledger;
failing to provide complete information to accountants; having unauthorized signers sign
checks; and failing to submit accurate financial information to the presbytery. In addition,
the Administrative Commission received information suggesting that the FPCS session
may have impermissibly used restricted funds
and improperly recharacterized certain assets. The actions by the FPCS session described in this paragraph violate G-3.0113
and G-3.0205.

9.

There are numerous irregularities in the records maintained by the FPCS session. For example, the minutes that the FPCS session
provided to the presbytery on October 30,
2015, reflect alterations and deletions of relevant material that had been included in the
earlier versions of the minutes obtained by

36a
the Committee on Ministry in 2014. The
minutes maintained by the FPCS session also
fail to reflect discussions and actions leading
up to the decision to unilaterally “disaffiliate”
from the Presbyterian Church (U.S.A.). These
irregularities violate G-1.0505, G-3.0107, and
G-3.0204.
10. Members of the FPCS session isolated and
drove out ruling elders who expressed their
conscience, and they sought to supplant the
elders’ ordination vows with vows of secrecy
and deception. These actions violate G-3.0103,
G-3.0105, G-3.0201, and G-3.0202.
11. The Administrative Commission received
many credible reports that reflect a pattern of
intimidation and manipulation by the former
co-pastors and other members of the FPCS
session. These reports came from elders, congregants, staff, volunteers, and others.
12. Jeff Schulz gave ruling elders scripts and
directed them to read the scripts verbatim before the congregation. Elders were also instructed as to what they could and could not
say when visitors attended session meetings.
13. The record of the dealings between the former
co-pastors and the presbytery reflects a pattern of duplicity rather than candor, including
specifically with respect to the proposed merger with A Seattle Church and the attempt to
“disaffiliate” from the presbytery unilaterally.
The FPCS session has also not been candid
with the congregation about these subjects.
The FPCS session has demonstrated a

37a
disregard for transparency, accountability,
and polity. Its actions violate G-3.0201 and G3.0202.
14. From 2010 through 2015, the Administrative
Commission has been told, the full terms of
call for the then co-pastors were not brought
before the congregation for its approval, contrary to G-1.0503 and G-2.0804. The Administrative Commission has seen no documents
suggesting otherwise. In addition, the FPCS
session entered into agreements with the then
co-pastors purporting to guarantee future
severance compensation if the presbytery
formed an administrative commission. These
agreements were neither disclosed to nor approved by the congregation, contrary to G1.0503c.
15. Multiple witnesses supplied the Administrative Commission with credible reports of improper conduct involving the former co-pastors.
Among other things, it was reported that the
former co-pastors were paid amounts not authorized by the congregation; that funds in accounts maintained for the upkeep of the
church were used on the former co-pastors’
personal residence, without corresponding increases in the church’s equity interest or the
pastors’ reported compensation; and that in
late 2013 the former co-pastors took some of
their compensation in cash in order to make a
better case for financial aid for a college-age
child. These actions violate G-2.0104a.

38a
16. The Administrative Commission heard from
many of those whom it interviewed that the
former co-pastors frequently did not act in the
manner called for by G-2.0501, G-2.0503, and
G-2.0504. They failed to support many people
in the disciplines of the faith amid the struggles of daily life and did not enable the ministry of others.
17. The Administrative Commission found irregularities in the manner in which the FPCS
session added congregants to or removed
them from membership rolls and in the vetting of prospective elders. There has been
arbitrary and inconsistent treatment of potential and current members; David Martin
was made an elder before he was baptized into
church membership; and elders were not rotated off the session after six years. These actions violate G-2.0104, G-2.0402, G-2.0404, G3.0201c, and G-3.0204.
18. Until very recently (the second half of 2015),
the FPCS session (including the co-pastors)
and congregational leadership through their
conduct and statements proclaimed the authority of the Presbyterian Church (U.S.A.)
with respect to both temporal and spiritual
matters at FPCS. For example, in a report to
presbytery dated September 18, 2012, in
which Jeff Schulz asked that the Seattle First
Redevelopment Committee be reconstituted
as the Seattle First Redevelopment Commission, he wrote that FPCS “owns its property
in trust of the Presbytery, which must approve
a purchase/sale agreement.” In a letter dated

39a
April 16, 2014, he wrote that “because
PC(USA) properties owned by local congregations are held in ‘trust’ of the denomination,
Presbytery has the authority to deny dismissal with the property, or to approve dismissal
with property with a negotiated financial settlement.”
19. In 2014, at the request of FPCS, the FPCS
session and the presbytery through another
administrative commission collaborated on
and approved agreements to sell and redevelop church properties, using agreed legal
counsel. As this was happening, the FPCS session secretly hired a lawyer with a reputation
for advising churches that seek to leave the
denomination about property disputes. When
this was discovered, Jeff Schulz first denied
that the lawyer had been hired and then
claimed that his hiring had nothing to do with
church property. He also denied that he had
any plans to take the congregation out of the
Presbyterian Church (U.S.A.).
20. On July 31, 2015, ten days after the appointment of the CSAR, elders David Martin and
George Norris met with then-elder Mona
Gacutan in Kirkland, Washington. They outlined to her a plan to unilaterally pull out of
the Presbyterian Church (U.S.A.), while keeping such discussions out of the session’s
minutes. They also discussed “how to isolate”
another elder, Neal Lampi, whom they saw as
unsympathetic to their plan. They supported
their arguments with false information about

40a
the finances of other churches in the presbytery.
21. At a session meeting on August 6, 2015, the
FPCS session discussed this “disaffiliation”
plan, although the discussion there and at
other meetings was not disclosed in the
minutes. The moderator, Jeff Schulz, asked
the members of the FPCS session to take a
vow of secrecy. Ms. Gacutan left the room rather than do so.
22. At a session meeting on October 25, 2015,
Ms. Gacutan made a motion, which was duly
seconded, to pursue the presbytery’s Communal Discernment and Gracious Separation
policy. The FPCS session failed to take a vote
on Ms. Gacutan’s motion, in violation of section 4 of Robert’s Rules of Order and G-3.0105.
At the end of the meeting, Ms. Gacutan resigned from the FPCS session. She asked
that her resignation letter be placed in the
minutes, but that request was refused.
23. At a session meeting on October 27, 2015, ruling elder Neal Lampi resigned from the FPCS
session. His seven-page letter of resignation
described this as “the culmination of [the session’s] long often duplicitous struggle with the
Presbytery.” He described the session’s practice of “concealing [its] deliberations” as having “now emerged to be the norm.” He called
upon his fellow session members to consider
their own motivations rather than just attack
the presbytery’s. And he lamented that the
conflict with the presbytery would now take

41a
place in civil court; “other options available to
our congregation have been set aside in favor
of the satisfaction of self-righteous indignation.”
24. At its meeting on October 27, 2015, the remaining members of the FPCS session took
several actions that violated the Constitution
of the Presbyterian Church (U.S.A.). They began by voting to rescind the existing bylaws of
the church and to adopt separate congregational and corporate bylaws.
25. The existing “Bylaws of the First Presbyterian Church of Seattle” were adopted by a vote
of the congregation on May 8, 2005. Those bylaws are not subject to amendment by the
FPCS session, and they remain in full force
and effect.
26. Article II of the bylaws is entitled “Relation to
the Presbyterian Church (U.S.A.),” and it provides as follows: “The First Presbyterian
Church of Seattle is a member church of the
Presbyterian Church (U.S.A.).”
27. Article V of the bylaws is entitled “Governance of the Church.” It provides as follows:
This church shall be governed in accordance with the current edition of
the Constitution of the Presbyterian
Church (U.S.A.). Consistent with
that Constitution, these bylaws shall
provide specific guidance for this
church. Robert’s Rules of Order
(Newly Revised) shall be used for

42a
parliamentary guidance. Any matter
of church governance not addressed
in these bylaws shall be governed by
the Constitution of the Presbyterian
Church (U.S.A.).
28. Article VI of the bylaws, entitled “Meetings,”
requires an annual meeting of the congregation and the corporation during the first quarter, at which changes in the terms of call for
the pastor(s) must be presented. It also provides that special meetings may be called by
the Session, if the call for the meeting states
clearly the purpose of the meeting and business is restricted to that which is specified.
Under Article VI, an annual special meeting
is required during the second quarter for receipt of the nominating committee report and
election of church officers. Consistent with the
Constitution of the Presbyterian Church
(U.S.A.), Article VI states that only active
members may vote and that “[p]roxy voting is
not permitted in meetings of the congregation
and the corporation.”
29. Article VII of the bylaws, entitled “Notice of
Meetings,” requires that public notice of meetings of the congregation “be given and printed
and verbal form on at least two successive
Sundays prior to the meeting.” It also requires
that printed notice of meetings of the corporation “be included in the church bulletin,
signed by the Clerk of the Session, . . . which
notice shall be audibly read at public worship
to the assembled congregation on at least two

43a
successive Sundays prior to the date of such
meeting.”
30. Article XI of the bylaws, entitled “Elders,”
states that “[t]he Session shall have such duties and powers as are set forth in the Constitution of the Presbyterian Church (U.S.A.).” It
provides further that the session “shall act as
officers and directors of the corporation, and
shall form such committees as are necessary
to carry out its work and maintain the corporation’s good standing with the State of Washington.”
31. Article XV of the bylaws, entitled “Amendments,” states that those bylaws “may be
amended [a] subject to the Articles of Incorporation, [b] the laws of the state of Washington
and [c] the Constitution of the Presbyterian
Church (U.S.A.) [d] by a two-thirds vote of the
voters present, [e] providing that the proposed
changes in printed form shall have been distributed at the same time as the call of the
meeting at which the changes are voted
upon.” The bylaw amendments that the FPCS
session purported to adopt on October 27,
2015, satisfied none of these five requirements.
32. The bylaw amendments purportedly adopted
by the FPCS session on October 27, 2015, violate both the Articles of Incorporation and
the Constitution of the Presbyterian Church
(U.S.A.). The restated Articles of Incorporation, adopted in 1985, provide that the corporation exists and acts “under the Form of

44a
Government and discipline of the ‘Presbyterian Church (U.S.A.).’” The Presbyterian Form
of Government requires, among other things,
that the powers exercised by any corporation
formed by a congregation are “subject to the
authority of the session and under the provisions of the Constitution of the Presbyterian
Church (U.S.A.). The powers and duties of the
trustees shall not infringe upon the powers
and duties of the session or the board of deacons.” G-4.0101. The corporate bylaws approved by the FPCS session on October 27,
2015, however, purport to place the property
of the church outside the control of session,
contrary to the Constitution of the Presbyterian Church (U.S.A.). The purported amendments are, therefore, void.
33. The bylaws provide that they can be amended
only by the congregation, not by the session.
The changes to the bylaws that the FPCS session purported to adopt on October 27, 2015,
were made without the knowledge, much less
a two-thirds majority vote, of the congregation. Nor were they distributed in printed
form to the congregation until after the FPCS
session adopted them. For these reasons as
well, the amendments adopted by the FPCS
session on October 27, 2015, were improper
and ineffective.
34. Acting under the improperly amended bylaws, the FPCS session on October 27, 2015,
appointed themselves trustees of a supposedly independent corporation. Under the restated Articles of Incorporation, the board of

45a
trustees must be elected by the congregation
at its annual meeting, but that did not happen in this case. The FPCS session/trustees
also transferred approximately $420,000 in
church funds to the trust account of Lane
Powell PC. This transfer was contrary to G4.0201. The presbytery has demanded an accounting of the funds and either their return
or their deposit in the court registry. The lawyers for the FPCS session have refused to do
any of those things.
35. On October 30, 2015, the FPCS session asserted to the presbytery that the FPCS Board
of Trustees “is not subject to the authority of
the Presbytery of Seattle . . . or the Book of
Order.” This assertion is fundamentally contrary to the Constitution of the Presbyterian
Church (U.S.A.): a board of trustees is subject
to the session, just as the session is accountable to the presbytery, and the actions of the
board of trustees are subject to the Book of Order. See G-3.0101, G-3.0201c, G-4.0202, and
G-4.0203.
36. The FPCS session called a meeting of the congregation for November 15, 2015, to vote on a
resolution calling for the church to “disaffiliate” from the Presbyterian Church (U.S.A.).
The notice of this meeting violated the requirements of the bylaws and G-1.0502.
Among other things, it was not given in
printed and verbal form on at least two successive Sundays prior to the meeting. It was
not mentioned at all in the service on November 8, 2015, which was a joint service with two

46a
other churches. The meeting notice also did
not meet the bylaw requirements for a public
notice of a meeting of the corporation: it did
not appear in the church bulletin, and it was
not audibly read at public worship to the assembled congregation on at least two successive Sundays.
37. “Disaffiliation” is not among the matters that
are proper to a congregational meeting under
G-1.0503. The FPCS session also called for
proxy voting at this meeting in violation of G1.0501 and Article VI of the bylaws, both of
which permit only active members of the congregation who are present at a meeting to
vote. The presbytery informed the FPCS session of these constitutional flaws, but the
FPCS session proceeded anyway. It counted
proxy votes and required that all ballots be
signed, thereby intimidating members. It disregarded protests from the floor. The FPCS
session acted contrary to G-3.0202c and section 45 of Robert’s Rules of Order.
38. The meeting of the congregation on November
15, 2015, had 54 individuals in attendance in
addition to the then co-pastors, two lawyers,
and two security guards. One member of the
congregation, RJ Parsad, was dragged out of
the meeting and was readmitted only after police intervention. As of November 15, 2015, according to the Administrative Commission’s
review of session minutes, the roster of active
or occasional members at FPCS should have
had 101 names, including Mr. Parsad’s, plus
four youth members.

47a
39. Liz Cedergreen, clerk of session, wrote a letter
to the Stated Clerk and the Executive Presbyter that was received by them on November
17, 2015. Ms. Cedergreen reported that at the
congregational meeting on November 15,
2015, “81 out of 104 members were present,”
and 73 of them “approved disaffiliation from
Presbyterian Church (U.S.A.).”
40. Under G-3.0303b and G-4.0207, a congregation’s relationship with Presbyterian Church
(U.S.A.) can be severed only by constitutional
action on the part of the presbytery. The “disaffiliation” resolution presented by the FPCS
session to the congregation on November 15,
2015, was unconstitutional and has no effect.
41. The amendments to the articles of incorporation that the congregation approved on November 15, 2015, are also invalid and of no
effect, because (among other things) those
amendments purport to effect a unilateral
“disaffiliation” from the Presbyterian Church
(U.S.A.). The FPCS session’s attempt to validate its bylaw changes retroactively by congregational ratification on November 15,
2015, was ineffective as well, because (among
other things) those bylaw changes violated
the Constitution of the Presbyterian Church
(U.S.A.). The meeting of the congregation and
corporation at which these actions were taken
was also not validly called and was not
properly noticed as the bylaws require.
42. Ms. Cedergreen’s letter of November 17, 2015,
signed “For the Session,” states that FPCS “is

48a
no longer affiliated with either PCUSA or the
Presbytery of Seattle.” Ms. Cedergreen’s letter
appears to be a written statement by the ruling elders of FPCS renouncing the jurisdiction
of this church.
43. On January 27, 2016, Neal Lampi found that
the door to the room where he regularly met
for Bible study with FPCS shelter guests had
been boarded up. On January 28, 2016, Gail
Irving resigned from her position as shelter
employee. She lamented the closing of “the
one evangelical piece of the shelter where the
gospel of Christ was literally shared” and described other aspects of the “shameful treatment” that shelter guests had received as a
result of the steps taken by FPCS leaders in
recent months.
44. The actions of the FPCS session described in
these findings violate G-4.0202, which states:
The provisions of this Constitution prescribing the manner in which decisions
are made, reviewed, and corrected
within this church are applicable to
all matters pertaining to property.
45. The actions of the FPCS session described in
these findings violate G-4.0203, which states:
All property held by or for a congregation . . . whether legal title is lodged in
a corporation, a trustee or trustees,
or an unincorporated association, and
whether the property is used in programs of a congregation or of a higher

49a
council or retained for the production
of income, is held in trust nevertheless for the use and benefit of the
Presbyterian Church (U.S.A.).
46. The actions of the FPCS session described in
these findings violate their ordination vows,
including specifically W-4.4003e and i:
e. Will you be governed by our
church’s polity, and will you abide by
its discipline? Will you be a friend
among your colleagues in ministry,
working with them, subject to the ordering of God’s Word and Spirit?
i. (1) (For ruling elder) Will you be
a faithful ruling elder, watching over
the people, providing for their worship, nurture, and service? Will you
share in government and discipline,
serving in councils of the church, and
in your ministry will you try to show
the love and justice of Jesus Christ?
(2) (For teaching elder) Will you
be a faithful teaching elder, proclaiming the good news in Word and Sacrament, teaching faith and caring for
people? Will you be active in government and discipline, serving in the
councils of the church; and in your
ministry will you try to show the love
and justice of Jesus Christ?
47. The FPCS session has failed to act in accordance with basic principles of accountability

50a
and responsibility, consistent with the mutual
commitments of Presbyterian polity, including
those governing the shared responsibilities of
councils (e.g., sessions and presbyteries) and
the governance of congregations, as required
by F-3.01 and G-1.01.
48. The conduct of the FPCS session has caused a
schism within the congregation. The members
of the congregation who oppose the actions
taken by the FPCS session on and after October 27, 2015, are “the true church within the
Presbyterian Church (U.S.A.).” G-4.0207.
49. The Administrative Commission has conducted a thorough investigation of the matters entrusted to it by the presbytery.
50. The Administrative Commission has accorded
the FPCS session a full opportunity to be
heard.
51. The FPCS session is unable or unwilling to
manage wisely its affairs.
52. For all these reasons, the FPCS session “cannot exercise its authority.” G-3.0303e.
53. The FPCS session has ceased to use FPCS’s
property as a congregation of the Presbyterian Church (U.S.A.) in accordance with the
Constitution of the Presbyterian Church
(U.S.A.). See G-4.0204.
54. The FPCS congregation is not viable under its
current leadership. Under other circumstances, there are ministry opportunities that
appear to be viable.

51a
Actions by the Administrative Commission
After prayerful deliberation and with a heavy
heart, but as required by the findings set forth above
and consistent with its delegated authority and responsibilities, the Administrative Commission has decided, declared, and taken action as follows:
1.

Effective 10:00 a.m. on February, 16, 2016, the
Administrative Commission has assumed
original jurisdiction with the full power of the
session of First Presbyterian Church of Seattle under G-3.0303e. The individuals who constituted the FPCS session prior to this action
by the Administrative Commission no longer
have any role in the governance of FPCS and
have no authority with respect to its ministry
or its property. The Administrative Commission will now perform the duties of the session.

2.

The Administrative Commission, acting as
the session, will (a) provide that the Word of
God may be truly preached and heard, (b) provide that the Sacraments may be rightly administered and received, and (c) nurture the
covenant community of disciples of Christ,
consistent with the responsibility and power
conferred by G-3.0201.

3.

The Administrative Commission has appointed Shelley Dahl and Steve Aeschbacher
as co-moderators of the session in accordance
with G-3.0104 and G-3.0201. If there are any
meetings of the congregation, the Administrative Commission has appointed Shelley Dahl

52a
and Steve Aeschbacher to act as co-moderators under G-1.0504.
4.

Acting as the session, the Administrative
Commission has elected Kathy Smith as the
clerk of session.

5.

Acting as the session, the Administrative
Commission has appointed Heidi Husted
Armstrong as temporary pastor to serve the
FPCS congregation.

6.

Acting as the session, the Administrative
Commission has appointed Scott Lumsden as
the person having authority to oversee the
property and financial affairs of FPCS.

7.

The amendments to the bylaws of FPCS that
were purportedly adopted on October 27,
2015, and purportedly ratified on November
15, 2015, are null and void.

8.

The amendments to the 1985 restated articles
of incorporation of FPCS that were purportedly adopted by the congregation on November 15, 2015, are null and void.

9.

The Administrative Commission believes that
ruling elders Liz Cedergreen, David Martin,
Lindsey McDowell, George Norris, Nathan
Orona, and Kathryn Ostrom have renounced
the jurisdiction of this church. If they have
not, the Administrative Commission acting as
the session will give them as well as Blair
Bush notice of its disapproval of their work. If
any of these individuals wishes to consult
with the session, he or she should contact
Kathy Smith within five calendar days. If,

53a
having been provided opportunity for consultation and having been given this written notice, Liz Cedergreen, David Martin, Lindsey
McDowell, George Norris, Nathan Orona,
Kathryn Ostrom, and Blair Bush, or any of
them, persist in acting as if they are leaders
of the FPCS congregation or the FPCS corporation, the Administrative Commission acting
as the session will conclude that they have renounced the jurisdiction of this church under
G-2.0407.
10. As provided in the bylaws of the church, the
members of the Administrative Commission,
as the current ruling elders on session, are the
officers and directors of the corporation. They
have elected Bob Wallace as president, Shelley Dahl as vice president, and Bill Longbrake
as secretary/treasurer of the FPCS corporation to serve terms of one year or until their
successors are elected, if sooner, and have empowered them to take appropriate steps and
to pursue appropriate remedies to implement
this report.
11. The individuals who previously constituted
the FPCS session are no longer officers, directors, or trustees of the FPCS corporation.
Their successors have been named in accordance with the bylaws of the church and the
corporation.
12. Even if the bylaws were not clear on this
point, the members of the Administrative
Commission, as the current ruling elders
on session, are the trustees of the FPCS

54a
corporation under G.-4.0102, unless the corporation has determined another method for
electing its trustees. The 1985 restated articles of incorporation of FPCS call for the election of corporate trustees at the annual
meeting of the congregation, but the former
corporate trustees were not so elected.
13. Because only persons eligible for membership
in the congregation or council are eligible to
be members of the corporation and to be
elected as trustees under G-4.0102, loss of
membership and ordered ministry disqualifies the individuals who previously constituted the FPCS session from continuing to
serve as trustees of the FPCS corporation.
14. If the former FPCS session members nevertheless continue to claim the status of corporate trustees, they are subject to the
Administrative Commission acting as the session and are answerable to the Administrative Commission acting as the session in all
respects under G-3.0201c, G-4.0101, and G4.0202.
15. All property held by or for FPCS – including
real property, personal property, and intangible property – is subject to the direction and
control of the Administrative Commission exercising original jurisdiction as the session of
the church. Under G-4.0204, such property
must be held, used, applied, transferred, or
sold as the presbytery may provide.
16. All funds that were transferred to the Lane
Powell trust account must be returned to the

55a
church immediately. Acting as the session, the
Administrative Commission further directs
that all funds held in the name or under the
control of the FPCS corporation be turned
over immediately to the Administrative Commission in its capacity as the session of the
church.
17. Until the Administrative Commission directs
otherwise, no church or corporate funds of
FPCS may be used or expended without the
prior approval of the Administrative Commission acting as the session.
18. To the extent that any books and records related to FPCS, including membership and
communicant rolls or financial records, are
currently in the possession of the corporation,
the former trustees, or any individual who, before today’s Administrative Commission action, was a member of the FPCS session, those
books and records must be turned over to the
Administrative Commission acting as the session within five calendar days.
19. The financial records of FPCS will be audited
as soon as possible by a certified public accountant appointed by the Administrative
Commission acting as the session.
20. The Administrative Commission acting as the
session directs all persons who were responsible for any financial transactions involving
FPCS since December 31, 2014, to provide a
full accounting of such transactions to the Administrative Commission within five calendar
days.

56a
21. Acting as the session, the Administrative
Commission directs the individuals who previously constituted the FPCS session and any
persons acting under their direction and control, including the former co-pastors, to vacate
the church premises and turn over the keys,
electronic door openers, and all other means
of egress/ingress to Scott Lumsden by 10:00
a.m. on February 18, 2016. The Administrative Commission, acting as the session, will
provide for the continuation of the ministries
of the church.
22. The Administrative Commission acting as the
session directs all persons doing business
with FPCS to do so through Scott Lumsden.
23. The Administrative Commission has authorized and directed the presbytery’s staff and
its legal counsel to take all steps deemed necessary or appropriate to carry out these actions.
24. The Administrative Commission reserves the
right to make additional findings and to take
further actions as necessary or appropriate.
/s/ Steve J. Aeschbacher
Steve Aeschbacher

/s/ Shelley M. Dahl
Shelley Dahl

/s/ J.P. Kang
J.P. Kang

/s/ William A. Longbrake
Bill Longbrake

57a
/s/ Heidi Husted Armstrong /s/ Kathy Smith
Heidi Husted Armstrong
Kathy Smith
/s/ Robert C. Wallace
Bob Wallace

/s/ Rev. Jonathan C.
Siehl LICSW
Jonathan Siehl

